<html>
<title> - OVERSIGHT HEARING ON COMMITTEE OF SCIENTISTS--NATIONAL FOREST PLANNING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 OVERSIGHT HEARING ON COMMITTEE OF SCIENTISTS--NATIONAL FOREST PLANNING

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON FOREST AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     MARCH 16, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-15

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______

56-355 cc           U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 1999


                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

                Subcommittee on Forest and Forest Health

                    HELEN CHENOWETH, Idaho, Chairman
JOHN J. DUNCAN, Jr., Tennessee       ADAM SMITH, Washington
JOHN T. DOOLITTLE, California        DALE E. KILDEE, Michigan
WAYNE T. GILCHREST, Maryland         OWEN B. PICKETT, Virginia
JOHN PETERSON, Pennsylvania          RON KIND, Wisconsin
RICK HILL, Montana                   GRACE F. NAPOLITANO, California
BOB SCHAFFER, Colorado               TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
                     Doug Crandall, Staff Director
                 Anne Heissenbuttel, Legislative Staff
                  Jeff Petrich, Minority Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held March 16, 1999......................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1

Statements of witnesses:
    Banzaf, William, Executive Vice President, Society of 
      American Foresters.........................................    32
    Bierer, Bob, Director, Forest Management, American Forest and 
      Paper Association..........................................    38
        Prepared statement of....................................    59
    Dombeck, Mike, Chief, U.S. Forest Service....................     8
        Prepared statement of....................................    49
    Floyd, Don, Chairman, Task Force on Public Lands Legislation, 
      Society of American Foresters..............................    33
        Prepared statement of....................................    51
    Johnson, K. Norman, Chairman, Committee of Scientists........    10
        Prepared statement of....................................    61
    Lyons, James R., Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture................     3
        Prepared statement of....................................    45
    Munson, Mary, Senior Associate, Habitat Conservation, 
      Defenders of Wildlife......................................    36
        Prepared statement of....................................    38

Additional material supplied:
    Sustaining the People's Land, Synopsis, etc..................    66

 
 OVERSIGHT HEARING ON COMMITTEE OF SCIENTISTS--NATIONAL FOREST PLANNING

                              ----------                              


                        TUESDAY, MARCH 16, 1999

              House of Representatives,    
            Subcommittee on Forests and    
                                     Forest Health,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:50 p.m., in 
Room 1334, Longworth, Hon. Helen Chenoweth [chairwoman of the 
Subcommittee] presiding.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. The Committee on Forests and Forests health 
will come to order.
    The Subcommittee is meeting today to hear testimony on the 
Committee of Scientists' National Forest planning. Under rule 
4(g) of the Committee rules, any oral opening statements at 
hearings are limited to the chairman and the Ranking Minority 
Member. This will allow us to hear from our witnesses sooner 
and help other members keep to their schedules. Therefore, if 
other members have statements, they can be included in the 
hearing record under unanimous consent.
    Today the Subcommittee on Forests and Forest Health 
convenes to hear from the administration's Committee of 
Scientists, which was chartered by Secretary Glickman in 1997 
to recommend changes to the Forest Service's land and resource 
management planning process. The agency itself initiated a 
critique of its planning process in the late 1980's and began 
drafting new regulations to improve and streamline its 
procedures shortly thereafter. Its goal was to develop new 
procedures before it was time to begin revising its 10-year 
management plans.
    Unfortunately, the new planning regulations never saw the 
light of day. After many delays, this administration appointed 
a Committee of Scientists to develop recommendations for the 
Forest Service to follow. Now, originally due in March or April 
of last year, then in September, then planned for release in 
February, the report was finally released yesterday.
    Based on a preliminary review of the administration's 
committee of Scientists' report, I am struck with mixed 
feelings. Now, while the Committee has, obviously, put a lot of 
hard work and thinking into this document, I still can't help 
but feel that the committee's recommendations are a recipe for 
the status quo, which means a continuation of gridlock, red 
tape, continued controversy, and more difficult plan 
implementation with fewer on-the-ground results.
    But, despite its good intentions, the committee's 
recommendations do not resolve a number of problems that have 
been identified since the Forest Service first conducted its 
critique. The 1982 regulations focus largely on the 
development, amendment, and revision of plans, but provide no 
direction for plan implementation. Forest plans are not based 
on realistic budgets, so the Forest Service is unable to fully 
implement them and adequately monitor the results. The public 
involvement procedures have not reduced the level of 
controversy over plan decisions. The ``viability provisions'' 
in the 1982 regulations have proven difficult to implement, 
setting a higher standard than the Endangered Species Act, and 
going beyond the intent and meaning of the diversity 
requirement in the National Forest Management Act. Appeals and 
litigation have greatly increased the time and cost of 
planning, both for forest plans and for projects designed to 
implement the plans, without substantially altering Forest 
Service decisions.
    While I am disappointed with the overall results, I believe 
some of the committee's recommendations really have merit, 
particularly the proposals to set up experiments and pilot 
projects across the country to try different approaches, to 
keep decisions close to the planning area, and the report's 
emphasis on adaptive management.
    Already Congress has passed, and even the administration 
has agreed to implement, some very positive pilot projects on 
national forest land. The Quincy Library Group bill originated 
in this very Subcommittee, and it is a great example of what 
local people can accomplish when they work together. The 
administration has also set a positive precedent by allowing 
expedited processes to be used in Texas for removing a blow-
down salvage. In addition, I will be working with leaders in my 
own State of Idaho to implement a pilot project where Idaho can 
manage specific portions of national forest land.
    With these positive steps in mind, I am particularly 
looking forward to hearing how the recommendations of the 
Committee of Scientists address the use of pilot projects, and 
how they will ensure that the decisions are locally based.
    Following the first panel, the Subcommittee will receive a 
report by a task group of the Nation's professional foresters. 
Their report on public land management laws provides a 
different view of the problems and solutions that are needed to 
resolve the Forest Service's current forest planning gridlock.
    And, finally, we will hear from two witnesses who have 
closely followed the deliberations of the administration's 
Committee of Scientists, and will offer their views on how to 
improve national forest planning.
    Now, I look forward to hearing from our panelists and 
reviewing these reports in more detail. Because I agree with 
the importance of using sound scientific principles in reaching 
forest management decisions, I would appreciate the witnesses' 
thoughts on the need for an independent scientific peer review 
of any of the recommendations that are presented today.
    And, when the Ranking Minority Member comes in, should he 
wish, I would be happy to recognize him at that time for a 
statement.
    Now I would like to introduce our first panel: Mr. Jim 
Lyons, the Under Secretary for Natural Resources and 
Environment, Department of Agriculture; Mr. Mike Dombeck, Chief 
of the U.S. Forest Service, and Dr. K. Norman Johnson, Chairman 
of the Committee of Scientists from Corvallis, Oregon.
    Dr. Johnson, I know you have others of your committee who 
are sitting behind you and, I wonder if you might, at this 
time, introduce them, please.

STATEMENT OF JAMES R. LYONS, UNDER SECRETARY, NATURAL RESOURCES 
        AND ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Dr. Johnson. Thank you. Thank you, Madam Chairman.
    As you said, I am Norm Johnson, College of Forestry, OSU, 
and I teach forest management and policy. And, with your 
permission, I will turn it over here and I will ask each of 
them to introduce themselves, if that is okay.
    Mr. Agee. I am James Agee, College of Forest Resources, 
University of Washington, Seattle.
    Mr. Long. James Long, Utah State University.
    Mr. Trosper. Ron Trosper, Northern Arizona University, 
Flagstaff, Arizona.
    Mr. Beschta. Bob Beschta, Oregon State University, 
Corvallis.
    Dr. Sedjo. Roger Sedjo, Resources for the Future, here in 
Washington.
    Ms. Dale. Virginia Dale, Oak Ridge National Laboratory in 
Tennessee.
    Ms. Shannon. Margaret Shannon, State University of New York 
at Buffalo, part of the environment institute in the school 
there.
    Dr. Noon. Barry Noon, Colorado State University.
    Mr. Wilkinson. Charles Wilkinson, University of Colorado.
    Ms. Wondolleck. Julia Wondolleck, University of Michigan.
    Mrs. Chenoweth. Well, I want to welcome all of you to the 
hearing and it is an honor, indeed, and a pleasure to have 
these distinguished men and women with us today.
    And, as explained in our first hearing, it is the intention 
of the chairman to place all of our outside witnesses under 
oath. Now, this is a formality of the Committee that is meant 
to assure open and honest discussion, and should not affect the 
testimony given by the witnesses. And, I believe that all of 
the witnesses were informed of this before appearing here 
today, and they have each been provided a copy of the Committee 
rules. So, now, if you will please stand and raise your right 
hand, I will administer the oath.
    [Witnesses sworn.]
    The chairman now recognizes Mr. Lyons for his testimony.
    Mr. Lyons. Thank you very much, Madam Chairman. It is a 
pleasure to be with you again this afternoon. I guess I would, 
first, ask that my complete statement be offered for the record 
and entered in the record, and I would simply summarize.
    I know really the focus of the hearing today is to hear 
from Chairman Johnson of the committee, and the members of the 
committee. But, I thought what I would offer today is an 
attempt to try to put things in context.
    You have already alluded to the 1995 rules and decision not 
to move forward with those rules. I thought I would offer some 
thoughts on that--on the valuable contributions that the 
committee's report provides us in terms of our goal of finally 
preparing a final set of rules for forest planning; then maybe 
just highlight a couple of the key provisions as I see them.
    First of all, I want to emphasize, as you know very well, 
forest planning and, in fact, forest planning rules have been 
fraught with controversy from the very beginning. After the 
enactment of the National Forest Management Act in 1976, Forest 
Service set about preparing rules to guide forest planning, in 
accordance with section 6 of the RPA, which NFMA amended. Now, 
those rules were completed in 1979, but, in fact, no forest 
plan was ever completed under those rules. As he entered office 
as a part of the Reagan Administration, one of my predecessors, 
Assistant Secretary John Crowell, elected to pull those rules 
back and to take a new look at forest planning rules. At that 
time, Doug McCleary was his deputy.
    They reviewed rules and the controversy over their efforts 
to attempt to revise the rules to conform with what they 
thought would provide proper direction led to reconvening of 
the Committee of Scientists, which had been originally convened 
to prepare the 1979 rules. The 1982 rules finally did go in 
place and, of course, all the forest plans that had been 
prepared, amended, and as you indicated, litigated, since that 
time, have been done so under the 1982 guiding rules. So, it 
has been some time since we have revisited the basic rules that 
guide forest planning.
    When I first took office, one of the bundles of paper on my 
desk was a proposal from the Bush Administration to amend 
forest planning rules. I elected to review those rules and 
decided not to proceed, but, in fact, worked with Forest 
Service in preparation of the draft rules that were issued in 
1995. In part, as a result of response to those rules and 
criticism from all sides about some of the substance of changes 
that were proposed--as well as some of the things we were 
learning--as the administration in moving forward with 
implementing new policy and management direction, lessons 
learned from the President's Northwest Forest Plan, from the 
Columbia River Basin effort, which you are well aware of, from 
implementing the salvage rider, and from working to try to 
prove the implementation of the Endangered Species Act, we 
found that there were a number of new lessons, and perhaps some 
new guidance, that should be incorporated into new planning 
direction.
    Therefore, we decided, instead of moving forward with the 
1995 rules, to establish a Committee of Scientists to take a 
fresh look at forest planning and the rulemaking that guides 
forest planning. In fact, in December 1997, as you pointed out, 
Secretary Glickman chartered and appointed the committee that 
is here before you today, and presented this report to 
Secretary Glickman on Monday.
    I think it is important to note that this is an extremely 
diverse committee, selected so as to represent the breadth of 
expertise and experiences we thought were essential to 
understanding the issues that are associated with forest 
planning and to help create a new foundation, if you will, for 
forest planning and management direction for the future. And, 
so, the individuals that just introduced themselves represent a 
wide range of areas of expertise from forest ecologists and 
silvaculturists, to economists, to a lawyer, to a sociologist, 
range ecologist, landscape background and experience, as well 
as extensive experience in other areas of ecology, such as 
animal ecology.
    We thought it was an extremely valuable team, and I think 
the product of their efforts are really outstanding. I think it 
does provide us a very valuable foundation for the work that we 
need to proceed with.
    The report that was presented to the Secretary, that we 
will discuss today, I would say, in a phrase, is elegantly 
simple in the direction it provides and the message it sends. 
And, that is simply this: We need to work in a way that better 
integrates science and policy in decisionmaking processes, 
working from regional ecological assessments to create a 
foundation, if you will, to guide resource management. In using 
the scientific information available, we should work with our 
public, with interested parties, with our colleagues, and other 
agencies, to help develop a desired future condition that 
provides some set of goals and objectives for forest management 
direction. We should then use that desired future condition to 
guide implementation of forest management policies and specific 
management actions and measure our managers' performance by how 
well they implement actions to help move us toward that desired 
future condition, a condition that has, hopefully, been 
developed and agreed upon by the community of interest in a 
particular national forest or region of the country.
    At the same time, we should monitor performance to ensure 
that we are getting the results we intended, and, in so doing, 
make corrections, as necessary, in the vein of adaptive 
management, a concept that we have discussed many times and, of 
course, a concept that former Chief Jack Thomas was 
instrumental in helping to put in place.
    Some key elements in the report that I think are worthy of 
focusing on are these: First of all, the report emphasizes that 
fact that ecological sustainability should be a foundation for 
the management of the national forest. In fact, the committee's 
report summarizes that concept in this way: The committee 
recommends that ecological sustainability provide a foundation 
upon which the management for national forests and grasslands 
can contribute to economic and social sustainability. And, I 
think, the key there, Madam Chairman, is the linkage between 
ecological sustainability and the social and economic 
sustainability of the communities that you and I care very much 
about across the United States, the emphasis on larger 
landscapes.
    I think what we have learned from our work in those regions 
of the country--I mentioned previously the Northwest, the 
Columbia River Basin, the Sierra, the Appalachians--emphasizing 
collaboration and the need for agencies to work together. I 
think we have come to recognize--we have discussed in this 
hearing room many times--the extent to which other agencies, 
given the jurisdiction and authority they have in implementing 
statutes like the Endangered Species Act and the Clean Water 
Act, and others, certainly impact how we implement planning. 
And, working with those agencies upfront is important in a 
collaborative vein, a focus on desired future conditions not 
devised, simply by the foresters in charge of individual 
national forests, but devised through partnership and dialogue 
with interested parties, with the public, with commercial 
interests that are impacted by the use of these national 
forests, and by those who may not live in an area proximate to 
a national forest, but certainly have a vested interest in this 
forest. Monitoring, which the committee highlights as an 
essential element of stewardship, I think is the key to 
ensuring that we are actually getting the results that we seek, 
and I think it is the key to responding to the concerns that 
you, and other Members of Congress, have raised with regard to 
our ability to be accountable for the investments we make and 
the resource decisions that we implement. Encouraging citizen 
participation throughout the planning process is another 
critical element and area of special emphasis.
    As highlighted in the committee's report, watersheds are 
given particular focus, which I think, in some manner of 
speaking, helps to validate some of the focus that the Forest 
Service is providing on watersheds as well as other elements of 
what we refer to as the Forest Service's natural resource 
agenda. Most importantly, the recommendation that we measure 
performance based on our ability to move towards that desired 
future condition that is established on a landscape.
    Let me explain, very briefly, Madam Chairman, how we hope 
to use the information that has been generated by the 
committee. In brief, we have been working on a parallel track 
with the committee in establishing a planning team to begin the 
process of revising and developing new planning rules--that 
track, largely with the recommendations of the committee. We 
have worked from earlier drafts of the report, shared 
information, which, of course, has been available to the 
public-at-large through the website that was established. The 
committee--in fact, I know the committee staff--has 
participated in several of the FACA meetings that were held by 
the committee.
    We have used this information to begin the process of 
developing rules which we hope we can issue in draft this 
spring, with the intent of moving forward, receiving public 
comment, making improvements and modifications to respond to 
that comment, and hopefully, completing the rules by the end of 
this year.
    I want to address one other issue, Madam Chairman, if I 
could, that I know will be a focus of discussion as this debate 
over the future of forest planning evolves. And that is the 
issue of the statutory foundation for forest management in this 
day and age. Some have argued, in fact, that the laws that 
guide the management of the national forests are broken. In 
fact, some will argue that the committee's report provides new 
direction for forest management.
    I would argue quite the opposite, Madam Chairman, as you 
might expect. I would argue that, in fact, the statutory 
foundation for management of the national forests is quite 
sound, and that this report really, in fact, simply reaffirms 
direction that has been the ``standing order,'' if you will, 
for management of the national forests for nearly a century.
    In fact, if I could--and I would ask that this be entered 
into the record--I have with me a letter that was sent by 
former Secretary James Wilson, Secretary of Agriculture, to 
Gifford Pinchot in 1905, nearly a century ago, which really 
provided the initial direction for management of the forest 
reserves as they were transferred to the U.S. Department of 
Agriculture for administration.
    I think, the most salient point in the letter from 
Secretary Wilson to Chief Pinchot was the following: The 
Secretary noted and directed that, where conflicting interest 
must be reconciled, the question will always be decided from 
the standpoint of the greatest good of the greatest number in 
the long run--I think arguing for the need to, not only deal 
with the concerns and issues of the present, but look to the 
long term in a sustainable way. In fact, Gifford Pinchot, in 
his autobiography ``Breaking New Ground,'' which I know you 
have, made note of the Secretary's letter and proudly said, of 
the letter, in the four decades between the time the letter was 
written and Pinchot wrote his autobiography--this letter has 
set the standard for the service, and it is still being quoted 
as the essence of Forest Service policy.
    I would argue, Madam Chairman, that in the six decades 
since Pinchot wrote these words, that direction contained in 
the original letter from Secretary Wilson to Gifford Pinchot 
still stands. I believe the committee's report simply reaffirms 
that direction.
    Let me close, Madam Chairman, by emphasizing something that 
I think the committee brought forth that is an extremely 
important point, and that is, over the years--and you are well 
aware of this--the Forest Services lost some credibility with 
the public, credibility with the communities we serve, maybe 
even credibility with the Congress, and our colleagues. The 
committee argues that there are ways in which we can begin to 
build or rebuild the credibility in partnership with that 
larger community of interest. In fact, the community argues 
that, by engaging the public in a dialogue about the use of 
their national forests, we can accomplish that larger goal of 
rebuilding credibility.
    As you know, Madam Chairman, forest planning has become an 
exercise that generates documents like these. And, actually 
this is one document in a pile that is about this tall, but it 
is sad to bring up--I didn't have the strength to bring it all 
up here today. We put the public through an exercise of 
attempting to review these documents and respond to us, not in 
a collaborative way, but almost in a responsive way. I think 
that has lent itself to impacting the public's trust in us and 
the public's acceptance of the direction we provide.
    To the contrary, I think our goal should be to engage the 
public in the management of their national forests, and, in 
fact, it is highlighted on the inside cover of the committee's 
report. Pinchot made the same argument back in 1907, again, 
nearly a century ago, when he said that national forests are 
made for and owned by the people; they should also be managed 
by the people. They are made not to give the officers in charge 
of them a chance to work out theories, but to give the people 
who use them, and those who are affected by the use, a chance 
to work out their own best profit. This means that, if national 
forests are going to accomplish anything worthwhile, the people 
must know all about them and must take an active part in their 
management.
    And, I think you would agree that is very true, Madam 
Chairman, that we need to translate forest planning, policy, 
and management direction in ways in which the public can 
understand it and become actively engaged in deciding whether 
or not this direction we provide is consistent with their goals 
and wishes. In fact, we need to engage the public in a joint 
effort in deciding what the desired future condition for these 
national assets should, in fact, be.
    The committee highlighted this point in their report, they 
said, ``People find it difficult to support what they do not 
understand. Further, few people have time for in-depth 
analysis,'' and they are referring to documents like this. The 
Forest Service must make a far greater effort to explain these 
policies in an understandable manner to the people who own 
these lands.
    I think, Madam Chairman, the committee has done us all a 
tremendous favor in reviewing past analysis and reviews of 
forest planning; in looking at the comments received from the 
public on past planning proposals; in fact, reviewing the 
internal critiques that you reference in your statement; in 
providing us a very sound foundation that should guide us in 
revising, what really amounts to, our planning technology so 
that we are better prepared and able to prepare plans that are 
responsive to, in effect, incorporate the public's views in a 
much greater way in the future than we did in the past.
    The committee makes a recommendation, specifically, with 
regard to how we should measure performance, in fact, that I 
think will help us as well. The committee said, quote, ``Past 
planning, which often focused on timber harvest and the 
allowable cut, tended to polarize people in groups. Planning 
that focuses on desired future conditions and outcomes and the 
activities to achieve them, on the other hand, gives the Forest 
Service the best chance to unify people on the management on 
the national forests.''
    I hope, Madam Chairman, as we work together on planning 
direction and these new rules, that we, in fact, can be unified 
in our commitment to attempt to get these rules finalized and 
out there as quickly as possible, so that our forest managers 
and, most importantly, the public we want to encourage to 
become engaged in this planning process, understand the rules 
under which they are to operate--and, more importantly, are 
encouraged to be more involved in deciding the future 
management of their national forests.
    With that, Madam Chairman, I want to thank you for the 
opportunity to appear before you today.
    [The prepared statement of Mr. Lyons may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Mr. Lyons, for your excellent 
testimony.
    The Chair recognizes Mr. Dombeck.

     STATEMENT OF MIKE DOMBECK, CHIEF, U.S. FOREST SERVICE

    Mr. Dombeck. Thank you, Madam Chairman, Mr. Sherwood. It is 
a pleasure to be here to speak with you today about a very 
important topic.
    And, it is also an honor for me to be here with our 
distinguished Committee of Scientists. I want to publicly thank 
Chairman Johnson and Dr. Virginia Dale for leading this effort 
through to completion, as well as the entire committee that has 
put a lot of hard work into this.
    I will be brief. I would like to ask that my entire 
statement be entered into the recordbook.
    I think we all believe that the national forests of the 
richest country in the world be a model for how human 
communities can live in productive harmony with the land that 
sustains us generation after generation. But, yet, so much of 
the debate over natural resources today seems to focus on 
things which we disagree about. And, yet, I am sure you and I 
will agree that there is more common ground for us to walk as 
we chart a course toward sustainability.
    After many months of work, the Committee of Scientists 
report illustrates that there are many similarities in the 
various perspectives of how to manage our national forests and 
grasslands. We all share the belief that we cannot allow any 
single use of these lands to diminish long-term productivity. 
The land's ability to support communities depends on taking 
care of the land's health, diversity, and productivity. And, 
this certainly is consistent with a multiple-use, sustained-
yield mandate.
    To achieve this balance, we must build capacity for 
stewardship among communities of place as well as communities 
of interest. The best available science from all sources must 
be used to help identify options for decisions on the 
landscape. Additionally, we would all likely agree that 
continued multiple-use management of our national forests and 
grasslands is appropriate.
    We also agree that multiple use doesn't mean every use on 
every acre. And, as Jim has mentioned, the American people are 
less concerned about the encyclopedic size of environmental 
impact statements and phone book size forest plans than they 
are about the results on the land. The results that they care 
about are: clean water, healthy forests, healthy watersheds, 
wildlife habitats, stable soils, recreation opportunities. This 
is the essence of the Forest Service's natural resource agenda. 
Combined with the recommendations of the Committee of 
Scientists, we will craft a new set of planning regulations 
that better meets the expectations of the citizen-owners of the 
public lands.
    As stewards of the public trusts, we know that our forests 
and grasslands will confer economic, social, and other benefits 
on people and communities nationwide so long as we manage them 
in a way that maintains their health, diversity, and long-term 
productivity. Forest planning is the pathway to achieving that 
end result.
    Based upon the Committee of Scientists' recommendations, 
ecological sustainability will lay a critical foundation for 
fulfilling the intent of the laws and regulations guiding 
public use and enjoyment of the national forests and 
grasslands.
    And, I want to say upfront that the Forest Service mission 
is clear and always has been. If we manage the land in a 
sustainable manner, over the long term it will take care of us 
generation after generation. And, I believe that is a common 
goal that we all share.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Dombeck may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Chief. I appreciate your good 
testimony.
    And, now the Chair recognizes Dr. Johnson. I want to 
especially welcome you to the Committee. You are from my home 
State, and I was raised in Grants Pass and admire the 
university, the Oregon State University. Welcome.

    STATEMENT OF K. NORMAN JOHNSON, CHAIRMAN, COMMITTEE OF 
                           SCIENTISTS

    Dr. Johnson. Well, thank you, Madam Chairman.
    Our committee was convened in December of 1997 by the 
Secretary of Agriculture, as you have said, and we were given 
an assignment to recommend how to best accomplish sound 
resource planning within the established framework of 
environmental laws and within the statutory mission of the 
Forest Service. We were asked to suggest a planning framework 
that could last a generation, and that is what we have tried to 
do.
    In our approach, we met around the country with Forest 
Service employees, representatives of tribes, States, and local 
governments, related Federal natural resource agencies, and 
members of the public.
    We found many, many creative ideas being expressed by both 
the Forest Service and members of the public about how to 
improve planning. And, much of our recommendations, many of 
them reflect what we learned. I am going to summarize, very 
briefly, the 10 or 12 major recommendations that we have.
    No. 1, recognize sustainability as the overarching 
objective of national forest stewardship. The national forests 
and grasslands constitute an extraordinary national legacy 
created by people of vision and preserved for future 
generations by diligent and farsighted public servants and 
citizens. They are the people's lands, emblems of our 
democratic traditions. And, we have named our report, which has 
just come out, ``Sustaining the People's Lands.''
    The committee believes that sustainability, in all its 
facets--ecological, economic, and social--should be the guiding 
star for stewardship of the national forests and grasslands.
    Looking back across the century, a suite of laws, starting 
with the Organic Act of 1897, call for Federal agencies to 
pursue sustainability. Thus, for the past 100 years, we, as a 
Nation, have been attempting to define what we mean by 
``sustainability,'' in part through our grand experiment in 
public land management. In the process, we have broadened our 
focus from that of sustaining commodity outputs to that of 
sustaining ecological processes and a wide variety of goods, 
services, conditions, and values. The concept of sustainability 
is old; its interpretation and redefinition in this report 
should be viewed as a continuation of the attempt by Gifford 
Pinchot and others to articulate the meaning of 
``conservation'' and ``conservative use'' of the precious lands 
and waters known as the national forests and grasslands.
    Recommendation two is that ecological sustainability is a 
necessary foundation for stewardship. The committee recommends 
that ecological sustainability provide a foundation upon which 
the management of the national forests and grasslands can 
contribute to economic and social sustainability.
    This is where planning should start--by ensuring that we 
retain and restore the ecological sustainability of watersheds, 
forest and range lands for present and future generations so 
they can continue to provide benefits to society.
    This recommendation does not mean that the Forest Service 
is expected to maximize environmental protection to the 
exclusion of other human uses and values, rather, it means that 
planning, for multiple use and sustained yield, should operate 
within a baseline level of ensuring the sustainability of 
ecological systems.
    The committee believes that conserving habitat for native 
species and the productivity of ecological systems remains the 
surest path to maintaining ecological sustainability. To 
accomplish this task, the committee suggests a three-part 
strategy, and we have drafted regulatory language to help the 
Secretary understand how the strategy will be converted from 
concept to application. With the committee's recommendations, 
choices in management still remain about the level of risk.
    Recommendation three, economic and social sustainability--
contributing to the well-being of people today and tomorrow--is 
a fundamental purpose of the national forests. Conservation and 
management of the national forests and grasslands can promote 
sustainability by providing for a wide variety of uses, values, 
products, and services, and by enhancing society's capability 
to make sustainable choices. Included in this effort should be 
the recognition of the interdependence of forest and grasslands 
with economies and communities; many communities depend on the 
national forests and grasslands for much of their economic, 
social, and cultural sustenance--as those of us who live in 
Oregon know.
    Although, the Forest Service cannot singlehandedly sustain 
economies and communities, the national forests and grasslands, 
nevertheless, contribute many valued services, outputs, and 
uses that allow these economies and communities to persist, 
prosper, and evolve. Within a context of sustaining ecological 
systems, planning must take generous account of compelling 
local circumstances. In addition, local communities have much 
to offer in terms of the entrepreneurship and people to 
undertake the treatments that will be needed to sustain the 
forests.
    Recommendation four, consider the larger landscapes in 
which the national forests and grasslands are located to 
understand their role in achieving sustainability. That is, 
planning should look outward. In the past--and I was part of 
the planning effort in region 6 in the late 1980's--planning 
tended to look inward, with each national forest treated 
somewhat as an island to provide all the goods and services. We 
feel that now planning should look outward and recognize the 
special role the national forests and grasslands play in 
regional landscapes.
    Five, to build stewardship capacity and use a collaborative 
approach to planning. Basically, this is getting everybody into 
the tent from the beginning to assess resource conditions and 
trends as joint public-scientific inquiries; to work with other 
public and private organizations toward a sustainable future; 
to address all Federal lands within the area and work, to the 
degree feasible, with all affected Federal agencies; to 
undertake coordinated Federal planning.
    Six, to make decisions at the spatial scale of the issue or 
problem. To have a hierarchical approach to planning, 
developing overall guidance for sustainability for bio-regions 
and undertaking strategic planning of large landscapes for 
long-term goals and project-level planning for small 
landscapes. And, as you mentioned in your opening remarks, we 
advocate an adaptive-planning approach where we learn from 
planning with experiments and pilots.
    Seven, use the integrated land and resource plan as an 
accumulation of planning decisions at all levels and as an 
administrative vehicle for plan implementation; to make these 
``loose-leaf'' plans dynamic and evolving, reflecting the 
outcomes of adaptive management; and to support local 
management flexibility, which we feel is essential to effective 
planning, with independent field review.
    No. 8, to make ``desired future conditions'' and the 
outcomes associated with them the central reference points for 
planning.
    No. 9, to make effective use of scientific and technical 
analysis and review, including developing scientifically 
credible conservation strategies.
    No. 10, to integrate budget realities into planning. Last 
time we approached planning more in the ``field of dreams'' 
approach, with the notion being that: ``build a plan and the 
money will come.'' Well, the money didn't come, at least not in 
total, and we feel that we should set long-term goals, 
considering likely budgets, and acknowledge that actual budgets 
affect the rate of progress.
    Eleven, we provided special guidance on watershed and 
timber supply, traditional focuses of the Forest Service in 
achieving sustainability that included a six-part strategy for 
conserving and restoring watersheds--which, I won't go into 
detail, but we have on our summary.
    And, next, on timber, to recognize the role of timber 
harvest in achieving sustainability; to recognize the need for 
predictable timber supplies and how adherence to sustainability 
increases long-term predictability; and to focus on desired 
conditions and the actions needed to produce these conditions, 
including timber harvest, in planning, budgeting, monitoring, 
and performance evaluation--to focus on desired conditions, and 
the actions needed to produce them, all the way from planning 
through implementation, through budgeting. We also acknowledge 
external influences on collaborative planning and stewardship 
and suggest developing a consistent approach across Federal 
agencies for addressing protests and appeals.
    Finally, to assist the Secretary in writing/planning the 
regulations, the committee has summarized these recommendations 
into a set of purposes, goals, and principles, which can serve 
as the statement of purpose at the beginning of the 
regulations.
    Thank you.
    [The prepared statement of Mr. Johnson may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Dr. Johnson.
    And, the Chair now would like to step out of order just a 
little bit and recognize the Ranking Minority Member for any 
statements he might have. Mr. Smith.
    Mr. Smith. I don't have an opening statement at this point. 
I will go ahead and ask a question as we move around.
    Mrs. Chenoweth. Thank you. The Chair recognizes the 
gentleman from Pennsylvania for his questions, Mr. Sherwood.
    Mr. Sherwood. Dr. Johnson, it's my understanding that, when 
the committee was chartered, Under Secretary Lyons indicated 
that he wanted the committee's report to be peer-reviewed. Is 
that correct?
    Dr. Johnson. That is not my understanding. That is not my 
understanding.
    Mr. Sherwood. I see. Was the report peer-reviewed?
    Dr. Johnson. We have sent it out and made it available, and 
various people and scientists have given comments to us, but it 
has not--the report that has just come out was not subject to a 
formal peer review.
    Mr. Sherwood. Has the committee kept detailed minutes of 
its meeting, as required by the Federal Advisory Committee?
    Dr. Johnson. We have minutes of our meetings that are put 
up on our web page.
    Mr. Sherwood. Would those be available for our Committee to 
review?
    Dr. Johnson. Oh, sure, they are already available.
    Mr. Sherwood. Good. We might want to see those.
    Dr. Johnson. Sure.
    Mr. Sherwood. Mr. Lyons, did you attend some of these 
meetings?
    Mr. Lyons. Yes, sir. I did.
    Mr. Sherwood. Okay. Like what percentage?
    Mr. Lyons. Well, I know I briefly attended the initial 
meeting and perhaps two or three others.
    Mr. Sherwood. And then--I have one more of this--and then I 
want to get into a little different line.
    Dr. Johnson, I understand you resigned from the committee.
    Dr. Johnson. Well, I am glad you asked that. I did not 
formally resign; I did not send a letter to the Secretary, but 
I lost my temper at one of the meetings, and if you had----
    Mr. Sherwood. We have all done that.
    [Laughter.]
    Dr. Johnson. [continuing] and, if you had listened to our 
conference calls, you would see that we have a very lively 
discussion. I felt that the committee was becoming too 
prescriptive in the details of what we were trying to do and 
getting away from our framework. And, I did send a note to them 
that I could no longer take part. The committee immediately 
asked me to rejoin and that we would work this out, and we did. 
I did not realize how much that would increase the interest in 
our report by the press.
    [Laughter.]
    Mr. Sherwood. Well, and don't think that the rest of us 
have never lost our temper in a substantive discussion. We just 
try not to throw a hand grenade in the middle of one of those 
good discussions.
    [Laughter.]
    I am pretty interested in the eastern Forest, being from 
Pennsylvania. And, I think that we can make some mistakes in 
the East that Nature gets us out of a little better than it 
does in the States in the West. But, how much did you involve 
the eastern Forest, and do you have any comments on SFI and 
those type of things?
    Dr. Johnson. First off, we had one meeting in Boston and 
another in Atlanta. We have a number of representatives from 
the East: Larry Nielsen from Penn State who, by the way, isn't 
here; Margaret Shannon who is from Buffalo. And, we were 
relying on them, and others from the East--and Virginia Dale 
who is from Oak Ridge, Tennessee--to make sure that we have the 
experience to reflect the conditions in the eastern national 
forests. That is how we tried to approach it.
    Now, if it is permitted, I would like to ask if any of the 
committee would like to make a further comment about that.
    Mrs. Chenoweth. Let me ask you, please, to identify 
yourself, for the record. Thank you.
    Mrs. Shannon. Margaret Shannon. I would just add that some 
of our really excellent examples of public participation and 
ways in which local people and the forests are working together 
came from national forests in the Northeast, the Green and the 
White Mountain, and we also have included some examples from 
the Huron-Manistee in Michigan.
    Mr. Sherwood. Thank you. One of the huge problems that we 
are so worried about in the West is the fire danger, and in the 
East we are more worried about deer damage. You know, I mean, 
things are so different. But, we find as we do our harvests in 
the East--and we think we are doing them very carefully, and 
timber stand improvement, and taking the mature stuff out and 
the junk out--and then we find that we don't have our normal 
regeneration because of the deer herd; that a young charier 
white ash sticks its head up and the deer lop it off. But, what 
does your plan suggest for the fire danger in the West, and how 
are we going to--the ladder, and all the natural trash that 
makes it--it was very instructive on this Committee to me when 
I was shown some old pictures that the forest, 100 years ago, 
had more big stems and not near as much underbrush and not near 
as much trash because the natural forage had taken it out. We 
don't have that anymore. How did you address that?
    Dr. Johnson. I would like to ask Dr. Agee, who is a fire 
ecologist, to address that.
    Mr. Agee. Hi, my name is James Agee from the University of 
Washington.
    I think the way we addressed this was in the conceptual way 
that we addressed all of the lands that are in the national 
forests and grasslands. To take a look at their long-term 
sustainability, to look at the condition of the land that we 
wanted into the future, and obviously, in the case of fire, we 
don't want these flammable forests into the future. So, we look 
at a desired future condition on a lot of these western forests 
that tends to try to save the larger, more fire-tolerant trees 
and reduce the smaller trees that would create a ladder, as you 
mentioned, that would carry fire into the crowns of the trees.
    It is the condition of the land that we feel planning 
should deal with, and the implementation and the progress 
towards those goals should utilize a combination of the 
appropriate tools for that particular place and that particular 
landscape. In the case of these western forests, I would 
probably include prescribed fire and timber harvest as some of 
the two--at least the two major types of tools that we would 
use. We did not, in our report, get so prescriptive as to 
specifically state that either timber harvest or prescribed 
fire should be used at a particular level or at a particular 
mix. We feel that those are the decisions that really have to 
be made based on this hierarchical planning that we have talked 
about and based on the collaboration that begins at that local 
level.
    Mr. Sherwood. Thank you.
    Dr. Johnson. Can I say one more thing? When you get a copy 
of this and--there are just very few copies right now--but if 
you turn to the very back of it where we talk about visualizing 
alternative futures--oh, you do have a copy. How wonderful. I 
know, but I barely have one. It is page 189. Okay, and, by the 
way, I know this is blurry and we are going to print it so it 
is better. The top left is the Eldorado National Forest, the 
current fire severity index. Red means, if you have a wildfire, 
you are going to burn it up. The righthand top is 50 years from 
now without active management; even more of it will be 
susceptible to fire. The bottom, left, is if you use a 
combination of prescribed fire and timber harvest, you can, by 
and large, eliminate that problem. Many people live along that 
lefthand edge, and that is a major issue.
    What we are trying to do here is, we are trying to point 
out that this visualizing the future, thinking of where we want 
to go, is fundamental to forest planning. And, this sort of 
display can work wonders in helping unify people as to what to 
do.
    This is the Eldorado National Forest in California, the 
same forest that is represented on the cover. No bias here, but 
I have spent a lot of time there. Okay. So, we are, in our 
report--while we are not prescriptive, we are trying to point 
out that, really, looking and understanding the long-run 
implications of different strategies is key, and we tried to 
illustrate what could be done to deal with the fire hazards.
    Mr. Sherwood. Thank you. My limited study of forestry--and 
it is a hobby of mine--has shown me, in the East, that no 
matter what we do, there are some trends that we can't control. 
We took a coniferous forest and we clear-cut it at the end of 
the last century, and it came back to be a vital hardwood 
forest. And, now, we have been cutting that, and then the gypsy 
moth killed a lot of it and the pines are coming back. You 
know, it is a moving target.
    I am interested in how strongly you took into your planning 
the needs of the country for forest resource. And I believe 
that it is wonderful to have some stands that we never touch, 
that we could look at know how they would be if we never 
touched them. But I understand that you get more water 
retention in a young forest; you get more growth in a young 
forest; you produce more oxygen. There are certainly lots of 
economic reasons to have a sustainable harvest. And, I would 
like to know if someone would care to address that, or if your 
plan was more esoteric than that?
    Dr. Johnson. I don't think I will be able to respond on 
whether it is more esoteric. The way we approached it was as 
follows: When you define where you want to go and what outcomes 
you want and the kind of products you want in the long run, and 
you try to work toward that, you have to undertake actions to 
get there. You, undoubtedly, want all the different 
successional stages represented and, thus, you have to find a 
way to achieve that, and certainly timber harvest has a 
significant role in that, in addition to providing outputs that 
people need.
    So we tried to define it; set up a framework where people 
could think this through and understand the implications, 
recognizing the dynamics of these forests. And, one of the 
major changes from this approach to planning than what we have 
had in the past was to recognize that the forest is not a 
static entity. You can't make it just sit there, and you have 
got to respond to that. And, if you wish to achieve, over time 
some conditions, you often need to get in there and do 
something.
    Mr. Sherwood. Thank you very much. I am afraid I am out of 
time.
    Mrs. Chenoweth. Thank you very much. The Chair recognizes 
Mr. Smith for his questions.
    Mr. Smith. Thank you very much, Madam Chair. I appreciate 
the opportunity. I appreciate all the work that all the 
scientists did.
    Back to my home State's universities, both were represented 
with Dr. Agee from the University of Washington and Dr. 
Hardesty from Washington State. And, it is nice to have the 
balance from the State, as well.
    [Laughter.]
    Always important.
    Let me ask just a couple of questions about some of the 
sort of fault lines, if you will, rocks in the hard places that 
you all have to deal with. Seems like in most public policy 
areas we spend a lot of time dealing with the areas, talking 
about the difficult areas out there, and sort of circling 
around them, and I understand that. Indirectly confronting them 
rarely leads to positive results, but it does need to be done, 
and I respect the fact in this report you did that.
    Sustainability is one of the key concepts, and I am 
wrestling with what sustainability means. Sustainability of how 
many different purposes for our public lands, for whom, or for 
how long a period of time? And, obviously, a lot of people 
think one big portion of sustainability is the timber. You 
know, it is very simple; you can't cut it all down now because 
you won't have any in the future, but what is the appropriate 
level?
    But, beyond that, is balancing the different uses for the 
public land, some recreation purposes, and all of that. Do you 
see a possibility for balancing all of those sustainability 
interests? I know firsthand that what sustainability means to 
the environmental community is an entirely different thing than 
what sustainability means to the timber companies. Do you see 
any possibility of recognizing all of those different views and 
coming up with a sustainable plan for our public lands?
    Dr. Johnson. Well, I want to make just a comment or two and 
then ask Charles Wilkinson to talk further.
    First off, when we looked back at the history of the 
legislation, there was a call for sustainability from the 
beginning; it has always been of interest to the people. And, I 
know there are many hard issues here. We felt that 
sustainability in all of its facets--ecological, economic, and 
social--was a really fundamentally important starting point and 
goal to have; and could create an approach to planning and an 
approach to thinking that would, in fact, focus on how do we 
sustain the full suite of outputs and uses and values and would 
recognize the legitimacy of all of them.
    Now, I would like Dr. Wilkinson, if he would like, to 
elaborate on that.
    Mr. Smith. And recognizing that is a very big step, I 
understand that and applaud that.
    Mrs. Chenoweth. You have no problem with his being 
recognized, Mr. Smith?
    Mr. Smith. Oh, I am sorry.
    Mrs. Chenoweth. Please identify yourself, for the record.
    Mr. Wilkinson. Yes, my name is Charles Wilkinson, Madam 
Chairman.
    You are right that it is a large step. And, sustainability, 
at the end of this century, is a term that is used widely, and 
we think of it as a key notion in natural resources policy. In 
working through our report, we spent a good amount of time 
trying to understand the many different laws that affect the 
Forest Service over more than a century. And, some of them, not 
always thought of as Forest Service laws such as: the Clean 
Water Act, the Clean Air Act, NEPA, and the Endangered Species 
Act, that apply on national forest lands. The more we talked 
about and understood those laws, the more comfortable we were 
with the idea that their central thrust was sustainability.
    Mr. Smith. Actually, while you are on that point, that was 
one of my other questions, was about the compatibility of those 
laws with land management and the difficulty--I mean, there are 
different regulations in different areas. And, from what you 
have just said, you basically said you saw greater wisdom in 
those laws, as you looked at it more closely. But do you still, 
also, see incompatibilities in terms of dual regulations 
overlapping, not working together?
    Mr. Wilkinson. That is a problem we face as Americans 
today, I think, with overlapping regulations, and it includes 
State and local, which are getting increasingly active on the 
public lands. But, if you had to find an idea that ran through 
them, it is sustainability. I am not sure it is commonly 
realized, but the first national forests were set aside for 
watershed protection, from irrigation districts around the 
West, to have the watersheds protect it. In 1897, when the 
Organic Act was passed, preserving favorable conditions of 
water flows was listed as the first purpose. And, it was just 
then that the Forest Service came of age with Pinchot and Teddy 
Roosevelt and the extraordinary actions that they took. Their 
driving force was conservation, a word that it is worth marking 
down and reflecting on.
    The Under Secretary earlier mentioned the famous Pinchot 
letter where he characterized the mission of the Forest Service 
as the greatest good for the greatest number. Over the years, 
those ideas have continued, and the Weeks Act was passed in 
1911 for watershed protection. We had a Sustained Yield Act in 
1944. And, then in modern times, the laws that this Committee 
is familiar with, has worked with, has amended, the ones I 
mentioned earlier all speak in some way about sustainability. 
The National Forest Management Act itself has a direct charge 
to the Forest Service to be a leader in maintaining the policy 
of conservation, to protect the Nation's natural resources in 
perpetuity. And, so, to us, it seemed clear that the broad 
mission that this Congress has charted for the Forest Service 
is sustainability.
    Mr. Smith. What do you see is being most in conflict with 
that broad purpose at this point? What are the two or three 
directions that we are being pushed or pulled in, in terms of 
public lands, that are in conflict with the sustainability 
mission?
    Mr. Wilkinson. Well, I think a person has to recognize that 
we went through a time in public land's administration--I 
think, largely, in response to the post-World War II boom, 
particularly in the West. The West has grown four-fold since 
the War, from 17 million people to 60 million people, and that 
required a lot of natural resources, whether it was water or 
coal or timber, and we responded. I think that this body has 
had serious questions about whether we didn't overdo the 
emphasis on commodity outputs. We must have commodity outputs, 
in my judgment, from the natural forests, and they ought to be 
significant. But, we have lost things in the national forests 
also. So, our report and the questions you raise are extremely 
difficult to answer in a shorthand fashion, and I know you 
appreciate that. But, we do believe it is valuable to recognize 
that the mission that this Congress has set out in using terms 
like ``sustained,'' and ``conserve,'' and ``in perpetuity,'' 
and ``future generations,'' that this body has used, 
repeatedly, over a century, that the first step is to protect 
the soil, and the water, and the watersheds themselves, so that 
they can sustain, so that they can provide for future 
generations. So, we use the term--the ecological component of 
sustainability is that that is the first obligation. Certainly, 
our every expectation is--and there was a question earlier 
about timber production--the national forests, unquestionably, 
can produce very significant commodity outputs. But, as Dr. 
Johnson articulated earlier, if you look out to the future--and 
the public with the agency sets a future vision--and you look 
at the actions and what the landscape should look like, that 
the commodity outputs will follow from that.
    I briefly say one thing: that we really do have an 
opportunity with the fuel loads in the Rocky Mountains, because 
there are areas for compromise there, because those areas do 
need to be cleared and a lot of that clearing can be done with 
harvesting.
    Mr. Smith. One last question, if I may, Madam Chairman?
    The watershed issue, that is a big concern in the Pacific 
Northwest and has impacts on a variety of areas. The salmon 
listing that is due out any day now--in fact, it could be 
today, Thursday--watershed is a key component of that. But 
also, as the region grows, we have greater and greater need for 
water and other cross purposes that conflict with making sure 
that that water is clean and available.
    How incompatible is the current commodity extraction 
practices on public lands, primarily timber, with protecting 
the watershed? I am operating from an area of very little 
knowledge here. From what I understand, particularly when you 
are talking about the roads and the cuts and everything, it 
creates major problems for the watershed if you don't have the 
riparian areas away from the water and that this has 
contributed a great deal to the problems I mentioned, not to 
mention flooding. I mean, we have had more flooding in the last 
five to ten years in the Pacific Northwest than we have 
probably have in the previous 100, and it can't all be 
coincidental.
    I guess the first question: How related it is to that? Is 
there a way we can do it differently? Is there a way we can 
build the roads differently and log differently? I agree, you 
do need lighting on public lands, to a certain extent, but is 
there some way to do it in a manner that doesn't lead to all of 
those negative consequences?
    Dr. Johnson. Congressman Smith and Madam Chairman, is it 
acceptable that I ask Bob Beschta--he is a hydrologist from the 
forest engineering department at OSU--to answer that question?
    Mrs. Chenoweth. Yes.
    Dr. Johnson. Thank you.
    Mrs. Chenoweth. Please identify yourself for the record, 
again.
    Mr. Beschta. Thank you. Bob Beschta at Oregon State.
    The question of whether we can both harvest and have high-
quality outputs with regard to water and aquatic ecosystems is 
a very controversial topic, as you are probably well aware, in 
the Pacific Northwest as well as other places. Very briefly--
and there are a lot of sidebars, if you will, here--but when 
you focus on a single product, if you will--I am going to 
overgeneralize here, but if we, let's say, maximize timber 
output from a watershed, I think what we have learned is we get 
into trouble. Okay, we maybe end up putting roads where we 
don't need them; we harvest in ways that probably would not be 
compatible with today's views on how to do that. There have 
been changes in forestry. We have learned a lot over the last 
30 or 40 years, or 50 or 60 years. A lot of it is how to grow 
trees and how to do that in a better way, but a lot of it has, 
also, been on the impacts that harvesting practices can have. 
There are a lot of lands on national forests, as well as 
private ownerships, where we can build roads and we can harvest 
trees and have minimal to little impacts on, let's say, aquatic 
resources as well as water yields, or water runoff and water 
quality. There are a lot of other places, though, that we have 
to be incredibly careful and modify the approaches we use.
    So, there is no simple solution to that one, but by being 
aware of what your long-term goals are on a given area and 
having some local management flexibility that is trying to 
reach those goals, I think there is opportunity to have 
harvesting and meet water-quality goals, but we have to be 
careful how we do it.
    Mr. Smith. Thank you very much
    Mrs. Chenoweth. Thank you, Mr. Smith.
    The Chair recognizes Mr. Udall.
    Mr. Udall of Colorado. Thank you, Madam Chair.
    I wanted to first acknowledge a couple of folks from my 
home district who are here with us today: Mr. Wilkinson and Dr. 
Noon, who are both Coloradans and served on the Committee. I 
thank you for your efforts and for the time you took to make a 
trip here to Washington, DC to be with us today.
    If I could, I would like to direct a question to Mr. 
Wilkinson to begin my questioning. What I hear you saying is 
the Committee's recommendations are consistent with existing 
laws that are applicable to national forests. Do we need to 
pass any new laws in order to implement your report?
    Mr. Wilkinson. Again, my name is Charles Wilkinson.
    We were asked by the Secretary to prepare a report based 
upon existing statutes. There are a number of important issues 
that we were concerned about that needed, if they were going to 
be dealt with, probably need statutory attention. And, they 
include, for example, the budget question of trying to 
coordinate planning with Congress' budget process; that would 
be one example. But, we tried to keep most of our report within 
existing law and, yes, we are satisfied that existing law well 
supports the proposals we have made.
    The Forest Service has, over the years, been recognized by 
the courts to have an extremely broad charter from Congress 
and, for example, they supported Pinchot's original grazing 
regulations and Chief John McGuire's mining regulations in 
1974, as just two of many examples that have come under the 
Forest Service's charter. So, yes, we are very confident that 
our recommendations are within existing law.
    Mr. Udall of Colorado. Madam Chair, if I may make a 
comment, then I have got another question.
    Listening to you talk about commodities, I am reminded of 
that old saying about the West, and particularly in Colorado: 
``Whiskey is for drinking and water is for fighting over,'' and 
we certainly are continuing that tradition in Colorado as we 
speak.
    [Laughter.]
    Mr. Wilkinson. I think everyone enjoys having the Udall 
humor alive in this building again.
    Mr. Udall of Colorado. I hope my Madam Chair does, too.
    [Laughter.]
    I want to stay in her good graces, of course. We are both 
from the West and the great Rocky Mountains.
    I want to have another question for Dr. Johnson. As I 
understand it, the committee is recommending an emphasis on 
maintaining the viability of selected focal species and their 
habitats.
    Dr. Johnson. Yes.
    Mr. Udall of Colorado. How would you identify these 
species?
    Dr. Johnson. With your permission and the permission of 
Madam Chairman, could I ask Dr. Noon from Colorado State to 
answer the question? Is that acceptable?
    Mrs. Chenoweth. Yes, Dr. Noon, please identify yourself.
    Dr. Johnson. And, it is not just because he is from 
Colorado.
    [Laughter.]
    Dr. Noon. I am Barry Noon.
    Let me, first, answer that by a few introductory comments 
about how we address the viability issue. As a committee, we 
recognized that the viability standard was, in fact, 
impractical and undoable for even the most well-meaning of 
managers. The charge to assess and make inferences to the 
viability of all species within a management area is simply not 
possible. But, yet, we recognize that that remains the goal. 
The goal is to sustain all species, but to assess all species 
is not possible.
    So we sought insight from what we have learned in the last 
20 years, broadly, in the field of environmental sciences of 
how we could still shoot towards the goal of sustaining the 
viability of all species and assess our progress, our 
compliance, to reaching that goal. But, in a way, that was 
doable. And, we adopted this idea of focal species, in which it 
is very generally described as: a species that provides 
inference up to the level of the ecological system to which it 
belongs. That is, having information just on the status and 
trends of that species provides insights far beyond that 
particular species itself.
    This is an emerging field in ecology; it is a very active 
field of research in both marine, freshwater, and terrestrial 
ecosystems. I think, since the regulations were initially 
written, and we have made significant progress, we recognize 
that to do this, the honest and responsible way to do that is 
in the form of hypothesis. That is, we are going to propose 
species as focal species. The hypothesis is that they are, 
indeed, providing inferences upward to the larger system. And, 
we are proposing that it is the responsibility of the Forest 
Service, through their monitoring program, to determine the 
degree to which that hypothesis is true. If it is false, then 
we propose that they need to suggest a substitute species or 
two.
    Mr. Udall of Colorado. Do you think this approach will meet 
the requirements of the Endangered Species Act and any other 
applicable laws that you might identify?
    Dr. Noon. Well, that is a really good question. You know, 
there is a point at which, even though the goal is to sustain 
all species, we have to provide managers with tools that, in 
fact, can be implemented. The assumption that a small group of 
species is providing inference to the status and trends of all 
the vast majority of species that are not being measured is an 
assumption that a responsible manager should be testing with 
some regularity. And that means going out and looking at the 
system, looking at species or processes other than the focal 
species or processes, to see if they are working as envisioned 
according to our model of how we think Nature works. To the 
extent they are not, to the extent that observation is not 
concordant with prediction, then you should revisit your 
management decisions. And, to us, that is the way we envision 
the process of adaptive management.
    Mr. Udall of Colorado. Thank you. I look forward to hearing 
more about this. And, thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Udall.
    The Chair recognizes the lady from California, Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Madam Chairwoman. And, I am 
from the far, far West.
    [Laughter.]
    It is interesting to listen to some of the dialogue, 
especially from the Committee of Scientists' viewpoint. I have 
a couple of questions, and one of them is directed at Under 
Secretary Lyons because of his report, page 2, paragraph 3. You 
indicate that the lessons learned from the experiences in 
developing the Northwest Forest Plan, the President's Northwest 
Plan, were factored, concluding that the draft forest planning 
rules in 1995 were not accurate. I am interested in, No. 1, 
what those lessons were because, after all, you learn from your 
experience and you are trying to be flexible. But, do you think 
that that report does reinforce the conclusion that the 
science-based ecosystem or the bio-regional assessments are a 
necessity for national forest planning for the future? And, is 
this plan revision process for the 10 national forests over in 
the Sierra Nevadas in California a good example? That is 
something that is a very key interest for us in California.
    Mr. Lyons. Yes, Congresswoman, I think we have learned a 
great deal from the Northwest Forest Plan, as well as the 
Sierra Nevada ecosystem project, which, actually, was initiated 
based upon statutory direction from some of your colleagues in 
California. I believe we learned that, in fact, having that 
scientific underpinning, borne of these regional assessments 
that allow us to understand the condition of forest resources 
trends and the range of variability in terms of those systems, 
is an important underpinning for the management direction that 
we set.
    One of the things that the Committee of Scientists, in 
fact, focused on was the linkage between these regional 
ecosystem assessments and land-management planning and, 
ultimately, local decisions; and, in fact, emphasized the fact 
that we needed to look at these lands in context before we made 
these decisions.
    If I could quote from one piece of the report in which the 
committee addressed the issue of sustainability, it pointed out 
that----
    Mrs. Napolitano. What are you referring to, sir?
    Mr. Lyons. I am actually referring to the summary document 
and, since this is a draft I worked from, I am not sure I can 
point to the specific page in their complete report.
    Anyway, they stated, quote, ``Moreover, the public lands 
rest in mosaic land ownerships, and so public land management 
must be integrated into a broader regional landscape. This 
context requires a Forest Service with a strong commitment to 
ensuring the sustainability of ecological systems on public 
lands and to embracing the adaptive management approach that 
recognizes the fundamental uncertainties and ecological, as 
well as social, systems and allows for policy choices to be 
informed by experience and change over time.''
    As you know from your experiences in California, the 
California landscape is undergoing rapid change. And, I think 
we learned, in preparing the Northwest Forest Plan, that we 
needed to understand the role those public lands would play in 
the larger context. One of the valuable lessons that came of 
that was, we worked with our sister agencies in the Department 
of the Interior, the jurisdiction over the Endangered Species 
Act, in helping to develop strategies that would allow us, if 
you will, on public lands, particularly the national forests 
and BLM lands, to absorb a dominant responsibility, if you 
will, for protecting some of the threatened and endangered 
species, which would then relieve some of the pressures on 
private landowners for meeting those endangered species 
obligations.
    That led to the development of what we call Habitat 
Conservation Plans, where Secretary Babbitt has really 
pioneered. The anchor for those Habitat Conservation Plans is 
the strong protection provided on Federal lands for those 
species of concern in that region. We had never done that 
before. So encouraging the collaboration between agencies, 
understanding our missions, and understanding the role the 
public lands could play versus the private lands in that larger 
landscape context was extremely valuable. And, I think the 
Committee of Scientists report highlights the importance of 
viewing resource-management decisions in that larger landscape 
context.
    Mrs. Napolitano. Thank you very much. Now, my second 
question, Madam Chair. With your permission, I will refer to 
your report in this book, that I just happened to look at, page 
59, section 3-10, where you talk about the planning 
coordination of the urban fringe and the San Bernardino 
National Forest. And, as your verbal report is indicating, you 
are looking at furthering the conservation areas. I must remind 
you, or at least implore you, to not forget those of us who 
live in those 26 cities that you mention on line 26. The South 
Whittier area, for instance, just recently put in about 300 
acres into conservancy and we are working to add Brea Canyon 
and Coal Canyon to the conservancy. Yet, we are having a tough 
time trying to figure out who, when, where, and how can we work 
with the different agencies to be able to have assistance, to 
not only purchase the lands from the current owners, who are 
sometimes demand exorbitant prices, but also to be able to put 
it all together.
    Our partners have been the TPL, the Trust for Public Lands 
in California, and we have had very good success at the 
beginning of the mountain range at the base of Whittier, and 
now it is moving. But, while you are focusing on the bigger 
picture, don't forget those little ones of us that are out 
there just flailing around and trying to say ``Help.''
    Mr. Lyons. Well, Ms. Napolitano, let me point out that I 
think, first of all, coordinating strategies and bringing those 
elements together is one of those things that we have a 
responsibility to do. So, I would be pleased to work with you--
--
    Mrs. Napolitano. Then, where have you been?
    [Laughter.]
    Mr. Lyons. Well, you haven't called; you haven't written. 
But, we will be there.
    Mrs. Napolitano. The last time I spoke to somebody from the 
Forest Service, they indicated to me that, ``Oh, we will talk 
to you because we are doing some school-based programs.'' Well, 
thank you very much; that is great for my schools. I am 
interested in the conservancy areas to help those folks not 
directly in my area; at Coal Canyon and Brea Canyon. But, I am 
helping Congressman Miller, and others in that area, continue 
the work that we started in our area, so that we have this 
wildlife corridor and are able to preserve it.
    Mr. Lyons. Well, now that I am aware of this, I would be 
certainly willing to help in whatever way we could.
    Mrs. Napolitano. I will be calling you.
    Mr. Lyons. I look forward to that. Let me point out one 
thing, though, because I know this is an issue of discussion 
within the larger committee. The administration has proposed a 
lands legacy initiative which would include resources, both for 
land acquisition and for the acquisition of forest easements, 
as well as for funding urban and forestry activities in those 
communities, all of which might be helpful tools in addressing 
the concerns you raise. So, I would be pleased to follow up 
with you and see what we can do to help.
    Mrs. Napolitano. Well, I appreciate your offer, and I 
certainly commend the agency for the work it does. It has got 
to be a tremendous job, and I certainly want to impose my own 
thoughts, for the record--that, I think the Forest Service 
should consider going back to its original intent of protecting 
the watershed first, protecting the forest, and then the rest 
can come as it may.
    Thank you.
    Mrs. Chenoweth. Thank you. The chairman has some questions 
and I wanted to follow up on a question asked of Dr. Johnson by 
Mr. Sherwood.
    Dr. Johnson, Mr. Sherwood asked you about peer review. Can 
you indicate, for the record, why peer review was not done 
before submitting the information and the report to the 
Secretary and to the Committee?
    Dr. Johnson. First off, our charter did not request that, 
but, secondly, this report is a little different from regular 
scientific work. This is an integration of scientific ideas by 
a broad-based group of scientists. And, so we did that and then 
provided it to the Secretary. The Secretary, of course, is 
welcome to do with it as he wishes.
    Mrs. Chenoweth. Dr. Johnson, will you be moving ahead on 
peer review on the report?
    Dr. Johnson. I don't plan to. I, actually, hope I am done, 
if you understand that.
    [Laughter.]
    But, I see that a number of individuals and groups are 
planning reviews of it. The Journal of Forestry is going to 
have a special issue on it, other people that we are about to 
hear later today, views of people, and I think there will be a 
number of reviews of it. I, myself, am not planning, right now, 
on further peer review.
    Mr. Lyons. Madam Chairman, if I could, since the 
Secretary's office gave the committee the charge--and since Mr. 
Johnson is anxious to retire from his current task--let me just 
point out that one of the reasons we didn't submit this to peer 
review, as Dr. Johnson indicated, this is a different kind of 
report. We have asked an esteemed group of scientists to render 
some opinions in evaluating current forest planning practices, 
the critiques of the past, and the job we are doing on the 
ground, as a basis for making recommendations for how we can 
improve forest planning. You know, we purposely sought and, in 
fact, worked with both bodies of Congress in identifying 
members for the committee, to try to come up with a broadly-
based group of people who could provide us as objective and 
independent opinion as we could obtain.
    So, our intent was not to submit this to peer review, 
because it is not like a document that would normally be sent 
out for peer review. This is not a research study or a 
scientific report in that vein. But, I would point out that, 
through the public participation process and the fact that the 
committee's report and all its drafts were available on the 
website, and through the process I know that we will engage in, 
in meeting with you, and other Members of Congress, that I 
think there will be an opportunity for a wide-ranging 
discussion and the merits of the recommendations that committee 
has provided.
    Mrs. Chenoweth. Thank you, Mr. Lyons. It has been reported 
to me that individuals that had attended the meetings did 
report that you did say at the meetings that there would be 
peer review. As we reviewed the minutes, the minutes are fairly 
sketchy about that. But, we did, specifically, inquire and I 
just want to see if you would like to clarify that for the 
record.
    Mr. Lyons. Well, I would be glad to. We don't intend to 
seek peer review.
    Mrs. Chenoweth. You don't?
    Mr. Lyons. No. We intend to use the information that has 
been provided and attempt to move ahead.
    Mrs. Chenoweth. All right. Let me ask Dr. Noon to take the 
mike again. Dr. Noon, your proposal about the focal species 
approach, I would have to guess, not being a scientist myself, 
that that is the same as indicator species, focal species. Is 
that what we commonly refer to as indicator species?
    Dr. Noon. Focal species is inclusive of the concept of 
indicator species, but it is broader than that.
    Mrs. Chenoweth. Would you please explain it?
    Dr. Noon. Some of the concepts that we have drawn on from 
the study of natural systems that people have been using, not 
just in this country, but throughout the world, to assess 
changes in biodiversity, have included concepts like indicator 
species, which often have the characteristics of being an early 
warning; that is, they respond quickly to changes to 
environmental stresses. But, in addition to that, we have added 
other concepts such as umbrella species. These would be species 
that have large area requirements, and by meeting their needs 
for viability, presumably, you encompass the needs of many 
other species that share their habitats, but have much smaller 
area requirements. For example, I think an argument could be 
made that the Northern Spotted Owl serves as an umbrella 
species for Lake Seral Forest in the Northwest.
    We have also brought in the concept of keystone species, 
that is, species that have effects on the transfer of matter or 
energy through ecosystems that is far beyond what you would 
predict from their abundance. Examples of this, perhaps the 
best example for marine systems are sea otters. For instance, 
from terrestrial systems, a good example is prairie dogs.
    We also talked about species that have unique positions in 
the trophic pyramid, the pyramid of transfer of matter and 
energy, to primary consumers, to herbivores, up the trophic 
chain to carnivorous animals. An example like this, again, 
drawing on some of my own research, might be the dusky-footed 
woodrat in owl populations. In fact, I noticed there is even an 
article in the latest issue of the Journal of Forestry talking 
about the role that it plays in managed forests in the redwood 
zone of California. So, it is inclusive of the indicator 
concept, but it is broader than that, sort of the general 
umbrella that we have adopted, that is, it provides inference 
far beyond its own status and trend.
    Mrs. Chenoweth. So, specifically, the definition of a focal 
species is what?
    Dr. Noon. It is the definition that I just gave you. It 
is----
    Mrs. Chenoweth. It is inclusive of all of those 
definitions, right?
    Dr. Noon. Yes.
    Mrs. Chenoweth. Okay. Now, I understand that your committee 
report acknowledges that this approach has never been field 
tested. What testing should be, and will be, done in the field 
before this approach is ready to be applied in all the national 
forests? What are your plans?
    Dr. Noon. I don't think we used the term ``field tested.'' 
We recognized what we honestly point out that there is no 
algorithm that we can pull off the shelf of ecological 
knowledge that tells us exactly how one should go about 
selecting a small subset of species, from the entire set, that 
will provide the most reliable inference upward to the larger 
system. The field testing--correct me if I am wrong--is not a 
term that we use. I mean, we certainly have a long history in 
my discipline, for instance, of wildlife management of 
implementing management practices to benefit populations and 
their habitats.
    Mrs. Chenoweth. Dr. Noon, the term is used on page 4 at the 
bottom of the second paragraph in the lefthand column. So, that 
is what prompted my question.
    Dr. Noon. The field testing here refers to the conceptual 
idea. The metaphor I made of an algorithm that one would pull 
off a shelf--let's imagine that you were a forest supervisor on 
a forest in the West, and you were to look at the species that 
you are responsible for. And, let's just restrict it to animal 
species, not to plant species. Your typical list would be in 
the hundreds. Now, clearly, it is not possible for you, if you 
were asked by the public, to state, unequivocally, what the 
current status and trends of all of those species would be.
    Now, the question we are posing is, is it possible that, if 
you looked at that list of species and imagine that we 
constructed a filter in which the fabric of that filter was 
based on our best understanding, both from empiricism and from 
theory, of how nature worked, and we were to dump in the top 
all 100 plus of those species, and what is retained in the 
filter is that small subset of species that provide the most 
reliable inference upward to the integrity of the larger 
system. That is what we are proposing that the Forest System 
work towards. And, that is consistent, really, with what 
ecologists like myself, from around the world, are working on 
in trying to assess bio-diversity, recognizing that we cannot 
measure everything, it is not possible. But, yet, it is our 
responsibility to ensure that bio-diversity persists.
    Dr. Johnson. Could I elaborate on that, just a little bit, 
Madam Chairman? Is that permitted?
    What we say there, which has to do with the ecological 
sustainability regulation that we drafted, is, we say this 
about the overall approach--let me just read a couple of 
sentences here: ``that the committee acknowledges that such 
concepts as focal species, ecological integrity, and the use of 
scientific information may involve technical issues and, thus, 
has an obligation to the Secretary and Chief to provide some 
insight on how this framework of ecological sustainability 
might be converted from concept to application. Therefore, 
while our approach has not been field tested, the committee has 
drafted regulatory language in the report that we believe 
provides a useful approach to the issue.''
    Well, first off, as I often do when I read something again, 
I wish I had written it a little differently and put ``fully 
field tested.'' But, the idea was that there are two parts to 
this.
    The first idea was that there are a number of parts to this 
regulation--that, of course, we have experience in the field. 
It was the integration of them that we were talking about as a 
regulation that perhaps needs some thought and examination by 
the Chief, and his people, to make sure they are practical.
    But, in addition to that, we have put forward working 
hypotheses, and we are acknowledging that. When the regulations 
were written in 1982--well, starting in 1979--I was actually a 
consultant to the Committee of Scientists. I was young then.
    [Laughter.]
    And, they were very much working hypotheses. But, the idea 
was we are going to come up with a new set of planning 
regulations that are going to last for a long time. We are now 
acknowledging these are working hypotheses. I think that they 
are much more conducive to management of the forests than what 
is in the current regulations. But, we have to acknowledge, I 
think, that we need a new set of regulations, but we can't put 
them in stone for 20 years. They, themselves, need periodic 
updates. And, so it is a different approach to thinking about 
management; it is the whole adaptive management concept applied 
to planning.
    Mrs. Chenoweth. Thank you, Dr. Johnson. I would like to 
ask----
    Dr. Johnson. Could I actually elaborate on this question of 
peer review? Is that permitted or not?
    Mrs. Chenoweth. Yes, please go ahead.
    Dr. Johnson. Since you mentioned that, in our meetings, did 
we discuss it, I racked my brain and tried to think of it. We 
had like seven 3-day meetings and then we had 10 conference 
calls, and I really do not remember where we, as a committee, 
said we were going to seek peer review. And, then I thought 
about the times when Jim Lyons talked to us, which were two or 
three, and I can't remember that happening then, either. But, 
we had a lot of conversations at those meetings, but I really 
do not remember that happening.
    Mrs. Chenoweth. I appreciate your clarifying that for the 
record.
    I would like to ask Dr. Sedjo to please come to the mic and 
please identify yourself.
    Dr. Sedjo. Roger Sedjo.
    Mrs. Chenoweth. And you are from?
    Dr. Sedjo. From Resources for the Future here in 
Washington, DC.
    Mrs. Chenoweth. Dr. Sedjo, what is the statutory mission of 
the Forest Service, and does the committee's report, in your 
opinion, appear to change that mission at all?
    Dr. Sedjo. Well, the statutory mission comes out in the 
National Forest Management Act of 1976, which calls for the 
sustainable production of multiple outputs and identifies 
several of those multiple outputs. The focus was unsustainable 
production of outputs. In the Multiple Use Sustained Yield Act 
of 1960, that calls for a high levels of periodic outputs of 
renewable resources in perpetuity. So, in both cases, the focus 
is on the outputs being produced on a sustainable basis.
    There is an interesting shift in focus over time here, and 
I am going to tell a little story that my colleagues sometimes 
think is a little soapy. But, if you look over time at the way 
we have looked at the national forest system, if we view it as 
a goose that lays eggs. In earlier periods, we viewed it as a 
goose that needed to be maintained; we needed to protect it; 
let it run around. We were in a protection mode. We moved from 
that mode into an output-oriented mode. We are looking at the 
goose as a working goose whose output was the production of, in 
the 1960's and 1970's, multiple-use eggs. The current 
perspective that I think this committee has adopted is to take 
the focus off of the output, off of the eggs, and put the focus 
on the goose.
    I sometimes characterize this as ``goose beautiful'' or the 
``body-builder goose.'' We are interested in the condition of 
that goose, and outputs are sort of incidental to that. And, I 
think there has been a shift through time in kind of the 
thought perspective, and, certainly, this committee has taken 
that view of the focus on the goose, rather than the focus on 
the output that that goose might be producing. I am not viewing 
it as a working goose, the way we were 20 or 25 years ago.
    Mrs. Chenoweth. I have taken advantage of my time, and I 
see Mr. Udall from Arizona is here. And, I would like to ask 
you--and I think I will do it in writing--what you believe are 
the biggest problems with the current regulations? I need to 
hear from you on that. And, in your opinion, does the report, 
adequately, give direction to resolve the problems with the 
current regulations.
    Dr. Sedjo. I will send you some thoughts on that in 
writing.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. And, the Chair now recognizes the gentleman 
from Arizona, Mr. Udall.
    Mr. Udall of New Mexico. Thank you very much, Madam Chair.
    I know you have already been asked about the viability of 
focal species and their habitats----
    Mrs. Chenoweth. Excuse me, Mr. Udall, for the record, Mr. 
Udall from New Mexico.
    [Laughter.]
    Mr. Udall of New Mexico. Thank you, Madam Chair. You know 
what happened is that at least a lot of my friends in Arizona 
say that there were too many Udall's in Arizona. So Mark is up 
in Colorado; I am over in New Mexico. We branched out. That is 
the theory. I don't necessarily claim that, but Arizona is 
where I was born, so no offense taken.
    I know you were already asked about the issue of the 
selected focal species and their habitats and how would the 
species be identified. What I was wondering is, once they are 
identified, how would the Forest Service proceed? Would there 
be an ongoing process of collecting data about their population 
trends to see how they are doing? And, how would the focal 
species approach differ from what the Forest Service is doing 
now?
    Dr. Johnson. With the permission of Mr. Udall and Madam 
Chair, could we have Barry Noon respond to that?
    Mr. Udall of New Mexico. Yes. That is okay.
    Dr. Noon. Barry Noon.
    The way that we envisioned this working is that, once you 
have your smaller group of focal species selected, with the 
logic that I outlined earlier, and that we go into detail in 
our report, is that you would need to understand their ecology 
and life history in detail. One of the key aspects that we 
propose is that you would relate that life history and that 
ecology to measurable aspects of the habitat, perhaps even the 
habitat elements that could be assessed, to some degree, based 
on remotely sensed data. You then go through an active period, 
in which you develop habitat-based models that make predictions 
about population, status, and trend. You, then, can move 
somewhat out of the intensive mode of population studies to 
assessing habitat as a surrogate--with this key caveat: that a 
habitat-based model alone may not be sufficient. There may be 
other threats that the species are being exposed to that are 
independent of habitat--over-harvest, pollution. So that this 
has to be validated with some regularity; that is, you have a 
habitat-based model; it makes a prediction about the status and 
trend of a focal species. And, then, as part of the monitoring, 
you go out in the field and you look to see whether or not the 
species is behaving as envisioned. So, you never completely 
give up the responsibility of, with some regularity, directly 
looking at the populations.
    Mr. Udall of New Mexico. Thank you very much. My second 
question is for Chief Dombeck, and it relates to this, but it 
is also the broader issue of watershed maintenance. And, I am 
wondering how your report meshes with your efforts to 
reestablish priority for watershed maintenance and the 
restoration of the national forests.
    Mr. Dombeck. First of all, I have not read the entire 
report, since we just got it yesterday, but I am aware of, have 
followed its development. And, with the aspects of the natural 
resources agenda that the Forest Service developed over the 
course of the last couple of years, with watershed health and 
restoration as one of the four primary priorities that we take 
on, I view it completely compatible. And, in fact, Charles 
Wilkinson talked about earlier in the hearing, talked about the 
mandate of the Organic Administration Act of 1897 that focuses 
on watersheds and securing favorable flows for conditions of 
water as well as the Weeks Act of 1911.
    The concept that I am working from, and just to put it 
simply, is that, if we take care of the soil and the water, 
everything else will be okay. The watershed function is what is 
most important: the groundwater recharge, the soil-holding 
capabilities, and capacities of the root systems of the trees 
and the vegetation, and all of that. This works as a unit on 
the watershed to keep things healthy and functioning. So, we 
recharge aquifers, maintained clean water flows in streams, and 
dampened the effects of floods, and all of these things work in 
concert. And, this is why it is so important to look at the 
watershed as a functional entity.
    Mr. Udall of New Mexico. Thank you, Chief. Thank you, Madam 
Chair.
    Mrs. Chenoweth. Thank you, Mr. Udall.
    I would like to direct this statement to Dr. Johnson. Dr. 
Johnson, I do have other questions that I want to ask you, 
specifically about nine. And, so I am going to ask them to you 
in writing. My concerns are, generally, how will the 
recommendations of your committee comport with what is regular 
Forest Service planning? I am concerned about how it will 
comport with the Government Performance and Results Act. How 
many levels of planning and decisionmaking have we been able to 
eliminate, or have we added more? One of my concerns comes out 
of a regional plan that was developed in the Northwest called 
the Interior Columbia Ecosystem Management Plan. And, it has 
had enormous cost overruns and it seemed to present itself here 
in Washington with many layers and levels of decisionmaking 
before we could get to the Chief.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. I am going to be reviewing the entire 
report--and I have only had a chance to review your summary--
and with the entire report, with that in mind, because we do 
need to expedite the ability, especially in the appeals 
process, to be able to get right to the Chief and on up, if we 
need to--so, I will be looking at that and I will also be 
asking you questions about whether the agency will be able to 
make decisions more quickly. I will be reviewing the study, and 
your recommendations, with regard to, are we enhancing the 
process that is already well enhanced and needs to be made more 
efficient, while we, actually, can see results out on the 
ground?
    And, with regard to your testimony and the testimony of Mr. 
Lyons, I still have questions about that and deep concerns.
    I do want to say that it is a privilege to be able to work 
with you and the committee. It is an honor to have you here, 
all of you. And, I want to thank you very much for the time you 
have put in for the Nation, for the forests, for the Chief, for 
the Under Secretary, for all of us in building this plan. I am 
sorry, but you are not entirely off the hook because I will 
have other questions for you. But, again, thank you for your 
service. Your time, energy, and intelligence is so greatly 
appreciated.
    [The information may be found at the end of the hearing.]
    Dr. Johnson. Well, thank you, Madam Chairman. The entire 
committee took part in this, and we did it because we care 
about these lands.
    I want to say just one final thing. If you look at the 
cover, there is a very small person looking up at the Eldorado 
National Forest, sitting on a rock; it is my 81-year-old 
mother.
    Mrs. Chenoweth. Is that right?
    Dr. Johnson. Yes. So certainly criticizing the report is 
fair game, but I get sensitive when people criticize the cover.
    [Laughter.]
    Mrs. Chenoweth. I don't blame you, and I am prepared for 
that.
    Mr. Lyons. Madam Chairman?
    Mrs. Chenoweth. Yes, Mr. Lyons?
    Mr. Lyons. I don't want to interrupt, but, if I could, just 
for the record, I want to acknowledge and agree with your 
commendation to the entire committee for Dr. Johnson, and the 
entire committee, for their extraordinary commitment and hard 
work in producing this document. We may, you and I, and others, 
may disagree about some of the elements of the committee's 
recommendation. And, I would simply point out, perhaps, some of 
the questions you may put to Mr. Johnson he may not be in a 
position to answer, because they ultimately will be issues that 
we have to address as we look at future planning regs. But, I 
don't think we would disagree that they have done a tremendous 
job and provided a tremendous service to the Nation in helping 
us tackle these difficult issues. And, I want to agree with you 
and thank you for offering your congratulations and 
commendation as well.
    Mrs. Chenoweth. Mrs. Napolitano.
    Mrs. Napolitano. I wonder, Dr. Johnson, if you would ask 
your committee, with the indulgence of the Chair, to stand up, 
so we may know who they are.
    Dr. Johnson. We introduced them once before, but, please, 
let's do it again. And, you might give your specialty when you 
identify yourself.
    And, I am Norm Johnson, College of Forestry, OSU, and I 
teach forest management and forest policy.
    Mr. Agee. James Agee, College of Forest Resources, 
University of Washington, Seattle.
    Mr. Long. James Long, Department of Forest Resources, Utah 
State University.
    Mr. Trosper. Ron Trosper, forest economist and Native 
American studies, Northern Arizona University in Flagstaff, 
Arizona.
    Mr. Beschta. Bob Beschta, hydrologist at Oregon State 
University.
    Dr. Sedjo. Roger Sedjo from Resources for the Future here 
in Washington. I specialize in economics and policy.
    Ms. Dale. Virginia Dale from Oak Ridge National Laboratory 
in Tennessee. I am a landscape ecologist.
    Mr. Shannon. Margaret Shannon, State University of New York 
in Buffalo. I specialize in social science and natural 
resources policy.
    Dr. Noon. Barry Noon from Colorado State University. My 
specialty is wildlife ecology.
    Mr. Wilkinson. Charles Wilkinson, University of Colorado, 
Federal and public natural resource law.
    Ms. Wondolleck. Julia Wondolleck, School of Natural 
Resources and the Environment at the University of Michigan. I 
specialize in public participation and dispute resolution.
    Dr. Johnson. And, the other members were Dr. Linda 
Hardesty, Department of Natural Resources Science, Washington 
State University, Pullman, Washington, range ecology and 
management, and Dr. Larry Nielsen, School of Forest Resources, 
Penn State University, Fisheries and Public Administration.
    Mrs. Chenoweth. Thank you very much. You are welcome. And, 
this panel is now excused.
    We will call before us Dr. Don Floyd, who is the chairman 
of the Task Force on Public Lands Legislation, Society of 
American Foresters, out of Syracuse, New York. Dr. Floyd, I 
wonder if you could introduce Mr. Banzaf?
    Dr. Floyd. Actually, we thought we might do it the other 
way around, if that is all right with you?
    [Laughter.]
    Mrs. Chenoweth. I wonder if you might both please stand and 
swear to take the oath.
    [Witnesses sworn.]
    Mrs. Chenoweth. Dr. Floyd, please proceed.

STATEMENT OF WILLIAM BANZAF, EXECUTIVE VICE PRESIDENT, SOCIETY 
                     OF AMERICAN FORESTERS

    Dr. Floyd. Actually, I would like to start by giving Bill 
Banzaf, who is the executive vice president of the Society of 
American Foresters, a minute to introduce the report and what 
we are up to here.
    Mr. Banzaf. Thank you, Don.
    Madam Chairman, if I may. I have had the pleasure of 
testifying before you on prior occasions; it is a pleasure to 
be back.
    My name is William Banzaf. I am executive vice president of 
the Society of American Foresters, that organization that 
represents the broad field of forestry. In a professional 
sense, we provide the accreditation to universities, publish 
five peer review journals, and attempt to set standards for the 
profession.
    What I would like to do, very briefly, before turning it 
over to Dr. Floyd, is to describe the process that is used by 
the Society of American Foresters to develop objective, 
science-based information that represents a very diverse 
professional constituency. We have, within the organization, 
practitioners and scientists representing the employment 
sectors of the forest products industry, academia, the 
consultant community, the environmental community, State and 
Federal governments. So, we have a very broad philosophical 
diversity within our organization, and we attempt to develop a 
process that reflects that diversity and uses the wisdom that 
comes from that diversity to develop our reports.
    Our charter was set for the committee by our council, our 
board of directors, in December of 1996, and it was a bit 
different than that of the Committee of Scientists in that we 
were to look beyond the planning regulations and examine all of 
the laws and regulations that affect the Forest Service and the 
Bureau of Land Management. I might say that this was, at times, 
a truly overwhelming task.
    And, as the chief staff officer of SAF, it really is my 
pleasure to take the opportunity to thank our volunteer task 
force, scientists who volunteered their time, under the 
direction of Dr. Don Floyd, to work over two years in putting 
this document together.
    Our process included meeting with the SAF membership at two 
national conventions, where we had close to 2,000 people in 
attendance, at several State society meetings, and the various 
regions affected by public land management, as well as visiting 
field offices, both of the Bureau of Land Management and the 
Forest Service.
    Our report was given an internal peer review by our forest 
science and technology board, some of the best scientists in 
the field. It was also reviewed by our forest policy committee. 
And, finally endorsed, after a great deal of debate, by our 
board of directors this past March 10.
    And, I will tell you that, in terms of at least internal 
peer review, Dr. Floyd and I, though certainly appreciating the 
comments of others, when one sees commas changed, semi-colons 
changed, and a small ``of'' replaced by another word, one does 
realize that one is getting peer review.
    I think it is important, in my concluding comment, to say 
that really what we hope is that: No. 1, the release of our 
report, along with the report of the Committee of Scientists--
and it was truly a pleasure to listen to their testimony--that 
these two reports will foster the bipartisan discussion that 
really needs to take place with Congress and the administration 
to make certain that we have constructive change.
    Finally, the executive summary report that you have before 
you is in official position, based on its endorsement by our 
board of directors of the Society of American Foresters.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. Thank you, gentlemen.
    The Chair recognizes Mr. Udall for questions.
    Mr. Banzaf. Excuse me, Madam Chairman.
    Mr. Udall, depending on your--Dr. Donald Floyd will be 
giving the actual full testimony.
    Mrs. Chenoweth. Oh, okay. I thought he had yielded to you. 
I do want to recognize him at this point.
    Dr. Floyd. Very rarely do the volunteers yield to me.
    Mrs. Chenoweth. Please proceed.

 STATEMENT OF DON FLOYD, CHAIRMAN, TASK FORCE ON PUBLIC LANDS 
           LEGISLATION, SOCIETY OF AMERICAN FORESTERS

    Dr. Floyd. I will gratefully reclaim my time. Thank you, 
Mr. Banzaf.
    I want to make a couple of points and I am just going to 
speak informally from some notes. I think the first thing that 
I want to say is I want to acknowledge the Committee of 
Scientists' work. I think they have really worked very hard on 
this document.
    The first observation that I would make is that many of the 
recommendations that we make in the SAF task force report are 
very similar to the ones that are made in the Committee of 
Scientists' report. So, there is a great deal in common between 
the two. There are a couple of differences, and I am going to 
come back and highlight those in just a minute.
    The second point I would make is that we purposefully 
prepared what I think is an independent assessment and did not 
look at the Committee of Scientists' work until--the first time 
I really reviewed their work was their fifth draft, which I 
think became available--the first time I saw it was in December 
of this year.
    We are quite hopeful that these two reports, taken 
together, will provide an impetus to reduce what we believe is 
significant polarization between the Congress and the 
administration regarding public lands policy. We think there 
have been some significant differences and the only way we are 
going to make things better is by moving in a bipartisan 
direction right now. And, that may be the most important thing 
that we can suggest here.
    Some differences: We do suggest a legislative approach 
rather than regulatory reform for addressing these issues. We 
believe that there are significant differences within the 
statutes that ought to be addressed and that life would be much 
simpler if we could have Congress say that these are the most 
important values, and these are the most important issues, and 
this is what the national forest ought to be managed for. We 
think that it is important to have that debate at the 
legislative level because the Constitution specifies that it is 
Congress' job to make the needful rules and regulations for the 
management of public property. And, if we can set the direction 
through legislation clearly, and that is a difficult task, but 
if we can set the direction for legislation clearly, it becomes 
much easier for the manager on the ground to know what she or 
he is supposed to be doing, in terms of what the priorities 
are.
    We think that one of the biggest issues that we have got 
right now is lots of different priorities that have been handed 
down through a variety of different laws. Then it becomes very 
difficult to interpret which one of those mandates is most 
important. That is not atypical; this happens in all fields of 
public administration and public policy, but it has become a 
significant problem.
    I think the second difference that I would highlight, I 
believe we are a little less sanguine about a more intensive 
public-participation process than the one that we have already 
seen. I think that there has come a time to really define what 
the purposes of public participation are in national forest and 
Bureau of Land Management planning. In my mind, those are not 
very clear right now, and we don't really say what the roles of 
those communities of place and communities of interest ought to 
be. I don't think that we are very clear about which decisions 
get made at which levels and, without being able to do that, it 
becomes difficult to participate, as a citizen, in the natural 
resource planning process.
    So, that if I were to go back and highlight--I think what I 
will just emphasize here are two or three important findings 
out of our work. First, the purposes of the public lands and 
national forests are no longer clear. That has been a 
continuing theme in the literature for the last 20 years. The 
General Accounting Office has said that; the Congressional 
Research Services said that; the Office of Technology 
Assessment has said that. There are multiple documents in 
places in the literature that indicate that what we have got 
here are--we use the analogy of a roof that is leaking. And, 
that what we do is we keep adding a few shingles here and a few 
shingles there, but we think that the roof is still dripping 
inside and it is time to tear the shingles off and start again.
    The second thing that we would point out is that we think--
and this was emphasized today and I want to reiterate this--
that multiple uses is a useful policy construct, but only in a 
broad regional or national level. And, I think it is important 
to specify that someplace. I would prefer to see that specified 
in legislation. I think that creates an awful lot of difficulty 
on the ground.
    Third, we are not certain, we are not convinced, that the 
more intensive planning is going to resolve basic values 
differences. We see fundamental differences between what 
interest groups want from the public lands, and we are not 
certain that we can resolve those differences through a better 
planning process.
    What else would I say? I guess my concern, my last concern, 
is that I think sustainability is a good goal, but I am not 
sure that it really translates into a clearly-defined set of 
purposes and priorities. I think that sustainability in a lot 
of ways is similar to multiple use or to sustained yield, or to 
ecosystem management, or a number of other terms of art that we 
use in natural resources management. When we talk to our own 
professional members about what those terms mean, there is very 
little agreement. It is important that we be clear about where 
we are going with that.
    Thank you.
    [The prepared statement of Dr. Floyd may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Dr. Floyd.
    And, now, the Chair recognizes Mr. Udall.
    Mr. Udall passes. The Chair does have some questions of Dr. 
Floyd.
    You said that, at first place, your report and the 
Committee of Scientists' report differ because you feel the 
purposes of the national forests are unclear. Now, given the 
fact that in the National Forest Management Act the 
congressional purpose is pretty well stated----
    Dr. Floyd. But there are many of them. And, which ones are 
most important? I think that is really what we would like to be 
able to begin to determine, through some kind of discussion or 
debate, is that if we are going to call ecological 
sustainability the most important purpose of these public 
lands, then let's say that, clearly, in legislation. Or, if 
protecting the soil and water, as Mrs. Napolitano said earlier, 
is what is most important, let's say that. But, right now, what 
we have really, if you look at the basic laws that drive the 
Forest Service, at least--I will talk about that rather than 
FLPMA, specifically--is that if you look at the Organic Act and 
the Multiple Use and Sustained Yield Act and then the National 
Forest Management Act, what you have is, essentially, a layer 
of three different statutes that are more than 100 years old in 
total, that have changed the direction gradually, and we think 
made unclear exactly what the priorities are.
    Mrs. Chenoweth. I wonder, Dr. Floyd, if you would be 
willing to summarize the findings in your report in a few 
sentences. Specifically, I would like to know if the planning 
process is clear about which decision should be made, and when. 
And, then, will the regulatory changes alone be sufficient? I 
think you have elaborated on that, and it is my more than 
guess--it is based on what I am hearing from you--that it is 
going to take legislative changes. But, is the planning process 
clear?
    Dr. Floyd. The feedback that we got from members and 
citizens that we talked to was that there was a great deal of 
confusion about what happens in the national forest planning 
process and which decisions get made at which scales; what 
things are appealable at what decision. I am sure that you have 
heard that comment before. It is a pretty widely-reported 
phenomenon, I think.
    Could that be simplified? I think it probably could be. 
And, I am not here to suggest that regulatory reform is not a 
part of this package and that regulatory reform should be 
avoided in some way. I think that both of these kinds of things 
have to advance. But, I really believe, ultimately, that we 
really need to clarify the purposes. I think that is the most 
important process.
    Mrs. Chenoweth. Now you mentioned that the Forest Service 
should be given a chance to develop regulations that implement 
the ideas outlined by the Committee of Scientists and others. 
Do you plan to evaluate those regulations based on your report, 
Dr. Floyd?
    Dr. Floyd. The Society of American Foresters does plan to 
undertake a review, both of the Committee of Scientists' report 
and of the proposed regulations.
    Mrs. Chenoweth. Now, will you also evaluate the chairman's 
proposed legislation for reduction of hazardous fuels in the 
wildland/urban interface and our proposal to seek expedited 
procedures for treatment of emergency situations, similar to 
that approved for the blowdown that occurred in Texas last 
year?
    Dr. Floyd. I have to tell you that I am not personally 
familiar with--I read the Fuels Reduction Act last session, and 
we provided testimony on that. Our staff folks tell us that, 
yes, we will be happy to do that.
    Mrs. Chenoweth. But on the need for parity as well?
    Dr. Floyd. Yes.
    Mrs. Chenoweth. All right, very good.
    Well, Dr. Floyd, I really appreciate your comments, too. In 
fact, I have some questions that I personally want to present 
to you with regard to stated purposes. And, I would like for us 
to get our attorneys involved in it and really start focusing 
on this, because you bring out a very good point. We do need in 
the Congress, to provide the direction. So, I thank you very 
much for your comments, both of you.
    And, Mr. Udall, do you have second thoughts on any 
questions?
    Mr. Udall of Colorado. No second thoughts. Just I thank you 
for your hard work.
    Dr. Floyd. Thanks. It is a pleasure to be here.
    Mrs. Chenoweth. Thank you. This panel is excused and we 
will recognize the next panel.
    Ms. Mary Munson, who is the senior associate, Habitat 
Conservation, Defenders of Wildlife, Washington, DC, and Mr. 
Bob Bierer, the director of forest management, American Forest 
and Paper Association in Washington, DC.
    Let me ask you both to stand and raise your arm.
    [Witnesses sworn.]
    The Chair recognizes Ms. Munson for your testimony.

      STATEMENT OF MARY MUNSON, SENIOR ASSOCIATE, HABITAT 
              CONSERVATION, DEFENDERS OF WILDLIFE

    Ms. Munson. Thank you for the opportunity to testify. 
Defenders of Wildlife is a nonprofit organization with 300,000 
members and supporters. We are dedicated to the protection of 
native wildlife in their natural habitats. I will summarize my 
remarks and request that I submit full written text for full 
insertion into the record.
    The Committee of Scientists' report offers an innovative, 
science-based approach for protecting structures, processes, 
and conditions to sustain wildlife and ecosystems. Overall, the 
report represents an improvement for planning and it expands 
the viability rule, making it, basically, more realistic to 
implement, and it reinforces ecological sustainability as the 
foundation of national forest stewardship.
    The major challenges ahead, and our deepest concerns, are 
that the recommendations are adequately translated into 
regulations. The regulations, we believe, must contain clear 
standards for ecosystem integrity and species viability, as 
well as objective methods for determining whether the standards 
are being met.
    The report establishes ecological sustainability as the 
foundation of national forest planning. Taken in totality, as 
several other people have testified, our national environmental 
laws reinforce this conclusion. We do not believe this is 
controversial, and we congratulate the committee for 
acknowledging its veracity.
    A major innovation in the report, we believe, is its 
approach to wildlife protection, which I already touched upon. 
It reaffirms the notion that managing forests to maintain the 
viability of wildlife species is a cornerstone of biodiversity 
protection.
    One of the major criticisms of the existing species 
viability regulation is that it is difficult to implement. The 
committee is proposing a trimmed-down, more efficient way to 
protect species viability without giving up that essential 
component, collecting and analyzing species population and 
trend data. Instead of requiring this assessment for all 
species, the committee applies it to a subset of surrogates 
known as focal species. We believe this compromise is fair and 
reasonable. The challenge for the agency is to produce 
regulations that define focal species in a way which is true to 
the committee's vision, so the agency is responsible for 
selecting truly representative surrogates for all species in 
the forest.
    But because the subset of species evaluated by the Forest 
Service will be limited, it is essential that the regulations 
state that the collection of quantitative inventory data for 
those species is an indispensable duty. A recent 11th Circuit 
Court case, Sierra Club versus Martin, identified two sections 
of the current code of regulations that, taken together, 
require the Forest Service to gather quantitative data on MIS, 
which is the Management Indicator Species, and use it to 
measure the impact of habitat changes on forest diversity. That 
was how they interpreted those two regulations. These 
regulations are identified specifically in my full written 
testimony.
    This is the role envisioned for focal species, and these 
sections should be taken as guides when rewriting the new 
regulations. Existing mandates also require gathering empirical 
data for threatened, endangered, and sensitive species as well.
    The current viability regulation limits managers to 
ensuring viability only for vertebrate species. The report 
suggests that this be extended to non-vertebrate species as 
well. Also, we are pleased to see that a full range of natural 
conditions, processes, and habitats would also be protected 
under this new proposed planning regime. By including such a 
broad spectrum of criteria, beyond just viability of species, 
the approach reflects current thinking, and it has been adopted 
by international experts.
    While we generally support the report's recommendations 
regarding ecological sustainability, we are concerned about 
some other aspects of the report. For example, it states that 
plan-implementation priorities for funding, in the face of 
budget shortfalls, are determined during a collaborative 
planning process. To be consistent with its conclusions about 
ecological sustainability, we believe that the regulations 
should clearly state that some elements in planning are simply 
not optional. Assessments, analysis, and monitoring or the 
viability of species are examples of indispensable planning 
steps. If there is no budget available for them, program 
activities should be curtailed. No collaborative group should 
be allowed the discretion to eliminate them.
    One of the most pressing issues in national forests, 
roadless area protection, was given virtually no attention in 
the report. Defenders and many other organizations are 
concerned about the continual pressure applied by the Forest 
Service to enter those areas. The basis has been to push 
forward timber sales. What makes this so tragic is that these 
areas command low timber prices or have high administrative 
costs associated with them. However, these lands have very high 
values for use by wildlife and contain conditions and qualities 
that argue for leaving them roadless. The committee was remiss 
in leaving this out, we believe.
    And, finally, the report included discussions about 
collaborative stewardship, but did not point out the problems 
associated with self-appointed collaborative groups such as 
Quincy Library Group. There needs to be caution about embracing 
similar bodies and planning processes that engage them.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Munson may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you, Ms. Munson
    The Chair recognizes Mr. Bierer.

STATEMENT OF BOB BIERER, DIRECTOR, FOREST MANAGEMENT, AMERICAN 
                  FOREST AND PAPER ASSOCIATION

    Mr. Bierer. Thank you, Madam Chairman. I want to thank you 
for the opportunity today to provide some views of the American 
Forest and Paper Association on the report prepared by the 
Committee of Scientists. I am Bob Bierer. I am the Director of 
Forest Management for the association, and I am presenting my 
testimony today on behalf of AF&PA's member companies, 
associations, and allied groups. Many of our members are 
totally or partially dependent on timber coming from the 
national forests and other Federal lands.
    As you know, Secretary Dan Glickman appointed the Committee 
of Scientists to evaluate the Forest Service land and resource 
management planning process and to provide recommendations for 
new planning regulations. Because our association has an 
intense interest in the agency's land management planning 
process, we have followed the committee's progress and 
deliberations closely through a series of public meetings and 
conference calls over a 15-month period, starting in December 
1997. We have submitted background information for their 
consideration as well as written comments regarding the current 
Forest Service planning process.
    At the meetings that the committee held, they heard that 
the Forest Service has spent many millions of dollars and 
thousands of employee person-years, and conducted countless 
meetings and public comment periods, to develop the current 
forest plans for each national forest. But to what end? The 
agency is not committed to implementing the forest plans. No 
forest plan is being fully implemented at this time. The public 
is even more polarized than ever. Virtually every forest plan 
is appealed and litigated. Local communities and businesses 
cannot rely on the outputs they expect from the forest plans, 
and the cost of forest planning and project planning to 
implement the forest plans continues to skyrocket. Did the 
committee address these issues? In our opinion, from what we 
have seen reviewing the draft reports, only marginally.
    We do have some concerns that I would like to share with 
you, based on our review of the draft. And, I have not had an 
opportunity to review the final.
    First, the report has not undergone any scientific peer or 
public review. We heard some testimony from Secretary Lyons and 
from Chairman Johnson that they did not understand that to be a 
charge. We understood that it was a charge. We heard that at 
one of the early meetings, and so we were expecting the peer 
review to occur.
    Why is that important? Well, the committee is recommending 
some modeling and theoretical stuff here that has never been 
field tested or operational. Especially in terms of the 
viability regulation, we feel it is very important to get some 
second opinions from other folks that are qualified, 
credentialed scientists, who probably have some differing views 
regarding some of these things, and might offer some other 
changes.
    Secondly, we feel that the report recommends what is 
clearly a new mission for the Forest Service that is in 
conflict with much of its statutory mission. It stresses a 
sharp shift towards ecosystem preservation with ecological 
sustainability being the kingpin, and kind of ignores the 
Forest Service's statutory mandate of multiple-use management. 
As one of the committee members has noted, the focus on the 
preeminence of ecological sustainability, coupled with the new 
stringent viability regulations recommended in the report, 
would have the effect of operating the national forests as 
biological reserves.
    This change goes well beyond the Secretary's charge ``to 
the committee to provide scientific and technical advice that 
can be made in the national forest land and resource management 
planning process,'' and that this be done ``within the 
established framework of environmental laws and within the 
statutory mission of the Forest Service.''
    The third major area where we have concerns is that most of 
the fundamental flaws in the current forest planning process 
will not be corrected by the changes suggested in the report. 
Forest plan implementation, for example, is frequently 
disrupted by administrative fiat, the most recent example being 
the recent road moratorium. These top-down directives from 
Washington render the forest plans useless, undermining the 
ability of local managers and communities to manage based on 
local conditions, and overriding years of local negotiations 
and compromise that went into the development of current forest 
plans. No wonder that local residents feel betrayed and 
frustrated and that forest plans have no credibility.
    The report acknowledges, but does little to address the 
problems of endless appeals that has plagued the forest plans 
and the planning process. It ignores other available successful 
models for handling appeals process, such as the pre-decisional 
appeals process used by the Bureau of Land Management.
    Meaningful forest-plan implementation will remain 
impossible without basic reform to force the budget and 
planning processes to operate in concert. Plans without 
corresponding budgets cannot be implemented.
    Madam Chairman, I would like to close with a quote from a 
recent editorial by former Chief Jack Thomas. He said that, 
``We have learned, and continued to learn, a great deal about 
our forests. We know that the heavy hand of one-size-fits-all 
government regulation does not land lightly or evenly. We know 
our crazy quilt of laws and policies often prevents management 
practices from working properly. And we know it is the 
stakeholders, the people, who stand to win or lose, who seem 
best situated to guide the decisionmaking to preserve their 
forests and protect lives and property.'' We fear, Madam 
Chairman, that the report has missed this mark.
    [The prepared statement of Mr. Bierer may be found at the 
end of the hearing.]
    Mrs. Chenoweth. Thank you very much, Mr. Bierer.
    The Chair, again, recognizes Mr. Udall for questions.
    Mr. Udall of New Mexico. I would just like to thank the 
panel for their comments and for their work on this issue.
    Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Udall.
    I would like to ask Ms. Munson my first set of questions. 
The courts have ruled that the Forest Service cannot be sued 
over the forest plan decisions, as I am sure you are aware. 
Given this ruling, what provisions are need in law or 
regulations to ensure interested parties have their concerns 
addressed in the forest planning process? And, the second part 
of that question is, does the Committee of Scientists' report 
provide this protection?
    Ms. Munson. I am not sure what you mean. The Supreme Court 
opinion that you're referring to I believe is the one that it 
did say that you can appeal the forest plan in certain 
circumstances, but there are a number of circumstances where 
the court did leave it open that they could be appealed.
    Mrs. Chenoweth. Could you specify the circumstances?
    Ms. Munson. Well, they weren't real specific on it, but 
they just said that their opinion only applied to the specific 
circumstances of that case.
    Mrs. Chenoweth. Which?
    Ms. Munson. I can't recall exactly what it was right now, 
but I can get that information. But they made it very clear 
that they said there were cases, and there were actually later 
on in the case were given some new evidence that they said, if 
they had given the evidence earlier, they may have been able to 
rule on that.
    [The information follows:]

------------
    Ohio Forestry Association Inc., v. Sierra Club, decided by 
the Supreme Court on May 18, 1998, ruled that the Forest Plan 
for the Wayne National Forest could not be appealed based upon 
allegations that the plan permits too much logging and 
clearcutting. The court held that it was not ripe for judicial 
review until those activities were implemented. The reasoning 
was that the alleged harm was only theoretical, and ruling on 
it at this stage would circumvent the system set up by Congress 
for those plans to be revised or appealed after a decision is 
made. Thus the Court ruled out ``pre-enforcement'' challenges 
to the plan, where alleged harm would take place in the future.
    However, it is my opinion that the Court was very clear 
that there are circumstances when forest plans can be appealed. 
In section III of the opinion, the Court declared that one of 
Sierra Club's arguments had validity, and if it had been 
presented in the original complaint, the ripeness analysis 
would have been ``significantly different.'' (However, the 
plaintiff had not made that argument in its original 
complaint). The argument was that the forest plan permitted 
many intrusive activities and omitted certain land use options 
that would have immediate effect on the forest. Thus, the Court 
essentially implied that plans could be appealed if it allowed 
intrusive activities, such as ``opening trails to motorcycles 
or using heavy machinery,'' which would have harmful effects on 
forests. They could also be appealed if plaintiffs alleged that 
activities that should take place in a forest area, such as 
``affirmative measures to promote backcountry recreation, such 
as closing roads and building additional hiking trails'' would 
be precluded by areas designated for logging by the plans. 
There may also be other circumstances where the facts of the 
situation differ, and the logging designations cause immediate, 
appealable harm. In any case, it is clear from this case that 
the logging components of the plan are appealable, given the 
right argument.
    Finally, it should also be mentioned that once a timber 
sale is contemplated or proposed on a forest, presumably the 
``ripeness'' obstacle could be overcome even for the 
allegations that the plans allow too much logging and 
clearcutting.
    The Supreme Court did not make a blanket prohibition on 
appealing forest plans, and in fact left open considerable 
opportunities to challenge them.

    Mrs. Chenoweth. So the court did limit that opinion only to 
that set of circumstances?
    Ms. Munson. The court did leave open the possibility of 
appealing forest plans given the proper circumstances.
    Mrs. Chenoweth. Now you indicated the regulations must 
contain very clear standards for ecosystem integrity and 
species viability and objective methods of determining whether 
the standards are being met. Would you share with the Committee 
how you would draft regulatory language just to do that, and 
could you submit your recommendations for the record?
    Mr. Munson. I would be happy to. Just as an example, and I 
think that the Forest Service on-the-ground managers would 
agree--that language is needed that clearly identifies the 
manager's duty, and defines what that duty is. And, I don't 
think it is that they can't perform their existing duties; it's 
just that existing duties are not defined well in the current 
regulation. So what we are asking for is very similar to what 
the forest managers are asking for: clear standards that they 
can follow.
    [The information follows:]

------------
    Clear standards and objective methods for determining 
whether the standards are met would include precisely defined 
duties and responsibilities for managers. For example, in 
regulations drafted to maintain diversity, the standard must 
indicate that managers must achieve a 90 percent probability of 
viability of all wildlife species, both vertebrate and 
invertebrate. To be clear, the standard must indicate the 
definition of ``viability.'' The Committee of Scientist's 
report recommends that a ``viable'' species have ``self-
sustaining populations well-distributed throughout the species 
range. Self-sustaining populations, in turn, can be defined as 
those that have sufficient abundance and diversity to display 
the array of life-history strategies and forms that will 
provide for their persistence and adaptability in the planning 
area over time.'' The reason I have included ``90 percent 
probability'' is that scientists and managers have acknowledged 
that 100 percent probably of maintaining viability is 
impossible, given uncertainty and effects beyond the managers' 
control. But Court decisions and the necessity of achieving 
ecological sustainability require that managers allow the least 
risk possible. Thus I would recommend language that allows no 
less than 85 to 90 percent probability of survival.
    Objective methods for achieving the viability standard must 
be contained in the regulations setting out the ``three-pronged 
strategy'' outlined by the Committee of Scientists to achieve 
viability (see page xix of their Report). These steps include 
selecting focal species and identifying their habitat needs, 
maintaining conditions to achieve ecological integrity, and 
monitoring the effectiveness of this approach. Objective 
methods must leave the managers no uncertainty about what they 
must do to perform those steps. Regulatory language is proposed 
by the Committee of Scientists, beginning on page p. 151 of the 
Committee's Report (version of the Report released on March 15, 
1999. Pages may be altered in the final printed version, due to 
be published in April). This contains an outline of objective 
methods which I would support. For example, it lays out the 
criteria for selecting focal species, and the components of an 
effective, ongoing monitoring program. The Committee also 
recommends independent, scientific review of the plan to 
achieve ecological sustainability. I agree with much of the 
other language in the Committee's draft language, and encourage 
the Subcommittee to review it.

    Mrs. Chenoweth. Now, regarding the committee's focal 
species approach--and you know I have taken particular interest 
in this--how many species should be included in focal species?
    Ms. Munson. However many species that the scientists on the 
ground feel are necessary.
    Mrs. Chenoweth. Now, you indicated that the collection of 
quantitative inventory data for the species is an indispensable 
duty. If that is the case, should the collection of that data 
be reviewable in appeals or by the court?
    Ms. Munson. The actual data collection? I'm sorry, I don't 
understand your question now.
    Mrs. Chenoweth. Should the collection of that data be 
reviewable?
    Ms. Munson. Absolutely, if data is not collected, the court 
should be able to rule on it. I think that the scientific 
information should validate any kind of management decision 
made, and where the data had not been collected, the decision 
should be appealable.
    Mrs. Chenoweth. Now, the focal species concept is brand-
new, to me, anyway, and we seem to be embracing a whole new 
dimension here. Because of that, in your opinion, don't you 
think that that whole new dimension, that approach, should be 
peer-reviewed?
    Ms. Munson. Well, I believe it has been. The concepts 
behind it have been peer-reviewed. I can provide the Committee 
with a list of articles that have been peer-reviewed and 
published, but although they don't call it focal species, they 
talk about surrogate approaches that do represent larger 
ecosystems.
    Mrs. Chenoweth. Can you recall some of the----
    Ms. Munson. The names of them?
    Mrs. Chenoweth. Yes.
    Ms. Munson. Not off the cuff. I would be glad to provide it 
for the Committee, though.
    [The information follows:]

------------
    The following reports and articles provide peer reviewed, 
scientific support for the focal species approach and/or the 
concepts underlying this approach.
    Chapin, F.S. III, M.S. Torn, and M. Tateno. 1996. 
``Principles of Ecosystem Sustainability.'' American Naturalist 
148: 1016-1037.;
    Christensen, N.L., A.M. Bartuska, J.H. Brown, S. Carpenter, 
C. D'Antonio, R. Francis, J.F. Franklin, J.A. MacMahon, R.F. 
Noss, D. J. Parson, C.H. Peterson, M.G. Turner, and R.G. 
Woodmansee. 1996. The Report of the Ecological Society of 
America Committee on the Scientific Basis for Ecosystem 
Management. Ecological Applications 6: 665-691;
    De Leo, G.A. and S. Levin. 1997. The multifaceted aspects 
of ecosystem integrity. Conservation Ecology [online] 1(1);
    Keystone Center. 1991. Biological Diversity on Federal 
Lands. A report of the Keystone Policy Dialogue. The Keystone 
Center, Washington D.C.;
    Mulder, B., B. Noon, T. Spies, M. Raphael, C. Palmer, A. 
Olsen, G. Reeves, and H. Welsh. In press. The strategy and 
design of the effectiveness monitoring program for the 
Northwest Forest Plan. General Technical Report PNW-XXX. U.S. 
Department of Agriculture, Forest Service, Pacific Northwest 
Research Station, Portland, Oregon.

    Mrs. Chenoweth. All right, thank you.
    Mr. Bierer, why do you suggest a scientific peer review and 
public review of the Committee of Scientists' report be 
completed before the Forest Service attempts to utilize this 
report as basis for new planning regulations?
    Mr. Bierer. That is a good question, Madam Chairman. One of 
the reasons that I think it is very important is that, although 
the committee was made up of 13 excellent and super-qualified 
folks, there were some expertise that was not represented on 
the committee. I think in terms of a geologist, there was 
nobody looking at geology or the minerals state or mineral 
resources. Having coming from a background working with the 
Bureau of Land Management, I certainly appreciate the need to 
look at both the surface and the subsurface resources when you 
deal with land management.
    Another reason that I feel that a scientific peer review is 
very important is that there has been no outside look at this 
report. It has been done internally, and although Jim Lyons 
indicated earlier, I think in his testimony, that the data was 
posted timely on the website and available for public review, I 
would beg to differ. I found that that was very frustrating; 
the data was not kept current on the website, and it was a 
difficult process to follow.
    Thirdly, I just feel, and our members feel, that there are 
things like the viability regulations that are untested, and we 
should have some other folks looking at that proposal and 
offering their suggestion and thoughts on that kind of approach 
before we apply it to 191 million acres.
    Mrs. Chenoweth. Well, Mr. Bierer, how would you describe 
the process used by the committee in developing this report and 
this plan?
    Mr. Bierer. It was a very interesting process to follow, 
Madam Chairman. No offense to the committee members, but 
sometimes, especially listening on the conference calls that 
they held, it was kind of like listening to a soap opera 
unfold, in that there were all kinds of different dialogues 
going in different directions. As I pointed out, I also found 
it very difficult to obtain current information. When we 
listened on the conference calls, for instance, they would be 
working from a draft that had been just circulated and that had 
not been available to members of the public, like Mary and 
myself, who were trying to track the development of the report. 
Sometimes, in my opinion, it seemed like the content format 
boiled down to who became the most obstinate and refused to 
back off of their position. So that became the position or that 
type of format was ultimately selected.
    Mrs. Chenoweth. Thank you, Mr. Bierer. You indicated 
earlier in your testimony that it was your recollection that 
peer review and field testing would be a part of the 
submission.
    Mr. Bierer. Yes, Madam Chairman. It is my recollection that 
was stated by Under Secretary Lyons at their first meeting in 
Chicago, that he wanted the report to be peer-reviewed.
    Mrs. Chenoweth. All right. Well, I want to thank the panel 
very much for your testimony, and it has been a very, very long 
hearing, but this is such an interesting subject, and the 
chairman was very

liberal in the five-minute rule. Usually I bring the hammer 
down right at five minutes, but I was so interested in hearing 
what the committee had to say, and I am looking forward to 
studying the entire report. Again, I want to thank all of you 
very much for all of the effort that you have made in investing 
in the report, and we will continue to work together, I hope, 
in good solid results.
    I do want to say that the record will remain open for five 
days, should any of you wish to amend your testimony or add to 
it. And, we will be sending to you additional questions. I 
think we would be here until 10 or 11 tonight if I expected you 
to answer all the questions we have been able to conjure up 
here. But it is a very interesting subject, and I do have more 
questions.
    [The information may be found at the end of the hearing.]
    Mrs. Chenoweth. So, again, I want to thank you all very 
much. Please excuse the length of this hearing. We did have a 
vote early on and we got started late. But, again, thank you 
very much for you good work and for your patience.
    And, with that, this hearing is adjourned.
    [Whereupon, at 5:25 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

 Statement of Hon. James R. Lyons, Under Secretary, Natural Resources 
            and Environment, U.S. Department of Agriculture

    Madam Chairman and Members of the Subcommittee, thank you 
for the opportunity to discuss with you the final report of the 
Committee of Scientists. The Committee was chartered and 
appointed by Secretary Glickman in the fall of 1997 to review 
the present forest planning process as well as propose 
revisions to the current regulation and recommend improvements 
in the development of future land and resource management plans 
(LRMPs). Today I want to help put the Committee's report in 
context by discussing the status of forest plans, the rationale 
for establishing this Committee and conducting its review, and 
the ways in which the Department and the Forest Service intend 
to use the Committee report and recommendations to improve 
forest planning and management in the future.

Background

    In accordance with Section 6 of the Forest and Rangeland 
Renewable Resources Planning Act (RPA) (16 U.S.C. 1600), the 
Secretary of Agriculture ``shall develop, maintain, and, as 
appropriate, revise land and resource management plans for 
units of the National Forest System. . . .'' In the two plus 
decades since the enactment of RPA, as amended by the National 
Forest Management Act (NFMA), there has been considerable 
debate surrounding planning.
    Initially following enactment of the NFMA, the Forest 
Service promulgated rules for implementation of the planning 
requirements. Although completed in 1979, no forest plans were 
ever completed under these rules. Soon after the Reagan 
Administration took office, then USDA Assistant Secretary for 
Natural Resources and Environment, John Crowell, withdrew these 
planning rules and sought to revise them. Such controversy was 
generated as a result, that the Committee of Scientists 
involved in the development of the first set of rules was 
reconvened and enlisted to work on what eventually became the 
1982 LRMP rules.
    Under the 1982 rules, 127 forest plans have been developed. 
However, in accordance with the planning statute, LRMPs are to 
be revised at least once every 15 years. By the end of FY 1999, 
12 of the 127 LRMPs will have completed revision. An additional 
39 plan revisions are due in CY 2000 and CY 2001. At present, 
we are concerned that in CY 2000, eleven plans may go beyond 
their 15-year due date, and an additional 28 plans may pass 
their 15 year cycle in CY 2001.
    Much has been learned in developing, implementing, and 
litigating the 127 forest plans and the numerous plan 
amendments and revisions that have been completed during the 
past two decades. Several reviews of the planning process have 
been conducted, leading the Forest Service to seek revisions to 
the 1982 regulations.
    When the Clinton Administration first took office, one of 
the first documents for our consideration was a proposal to 
rewrite the forest planning regulations. We elected not to 
proceed with this proposal, but instead began working with the 
Forest Service on a new approach to the rules. This effort led 
to the issuance of draft rules in 1995, but, based on the 
comments we received from the public, our lessons learned from 
our experiences in developing the President's Northwest Forest 
Plan, regional assessments and other regional ecosystem 
management strategies were not reflected adequately in the 
draft rules. In short, our experience was outpacing our ability 
to incorporate it fast enough in the draft rule.
    After working two more years on applying ecosystem 
management strategies on the ground, the Secretary, the Chief 
and I felt more confident about taking on the task of rewriting 
the regulations to incorporate an overall strategy for 
consistently applying ecosystem management across our forests 
and grasslands. As a starting point, the Secretary decided to 
use his authority under the National Forest Management Act 
(NFMA) to convene a Federal advisory committee of scientists of 
diverse backgrounds to provide advice on revising the planning 
regulations.
    Secretary Glickman directed the committee to make 
recommendations on how to best accomplish sound resource 
planning within the statutory mission of the Forest Service and 
the established framework of environmental laws. The committee 
also was asked to provide technical advice on the planning 
process and provide information for the Forest Service to 
consider in revising the planning regulations. Finally, the 
committee was to recommend improvements in Forest Service 
coordination with other Federal, state and local agencies, and 
tribal governments while recognizing the unique roles and 
responsibilities of each agency in the planning process. In my 
first meeting with the Committee of Scientists, I emphasized 
that the Secretary and I wanted the committee to develop a 
conceptual framework for land and resource management planning 
that could last a generation.
    The committee met in cities in each region of the country 
and heard from Forest Service employees, representatives of 
tribes, state and local governments and other Federal agencies, 
members of the public, former Chiefs of the Forest Service and 
members of the original Committee of Scientists. They shared 
their concerns and offered ideas about the current planning 
process as well as the current management of national forests 
and grasslands.

Overview

    At the outset, Madam Chairman, I want to acknowledge that 
some have argued that NFMA is broken and that the environmental 
laws that guide national forest management are, themselves, no 
longer manageable. I disagree. On principle, these laws remain 
sound and reflect the evolution of American interest and 
concern for our lands, air, water, and wildlife. In addition, 
we have not exhausted the flexibility within these laws to 
improve their implementation. Only after we have exhausted this 
flexibility, should we revisit the basic statutes.
    This Committee of Scientists was carefully selected to 
represent balanced views, experience, and academic backgrounds. 
Together, they have a breadth of expertise and a sum of 
experiences that well-qualified them to undertake this review. 
Their task was not easy. And, at times, differences of 
professional opinion boiled over. Yet, the recommendations they 
offer provide an important foundation for new directions in 
forest planning and management which we will seek to reflect in 
new forest planning rules.
    Much of what we know about forestry and forest management 
has changed since the 1982 NFMA regulations were developed.

    <bullet> Science has assumed a much stronger role as a foundation 
for national forest management.
    <bullet> We are focusing more on managing the sum of the parts--on 
entire ecosystems--rather than single species or outcomes. The 
cumulative effects of management activities over time and over larger 
parts of the landscape are considered, regardless of whether or not 
they occur within a specific national forest boundary.
    <bullet> The concept of ``adaptive management'' encourages changes 
in management emphasis and direction as new, scientific information is 
developed. Of course, this requires more effective monitoring of 
management actions and their effects.
    <bullet> Regional ecosystem assessments have become the foundation 
for more comprehensive planning, sometimes involving multiple forests 
and other public land management units. The President's Northwest 
Forest Plan, for example, affected 17 national forests and 6 BLM 
districts in a three state region. The Interior Columbia Basin 
Ecosystem Project will affect lands encompassing 25 percent of the 
entire national forest system and 10 percent of the public lands 
administered by the BLM nationwide.
    <bullet> The number of agencies participating in management 
decisions has grown. Agencies like the U.S. Fish and Wildlife Service, 
NMFS, and the EPA are now partners in the planning process, as well as 
states and tribes, as appropriate.
    <bullet> The unit of analysis for management decisions has changed 
to a focus on watersheds discrete and ecologically intact units on the 
landscape. As a result, discrete administrative units such as national 
forests, are proving less useful for resource management purposes.
    <bullet> Our view of communities is changing. We no longer think 
solely in terms of ``timber dependent communities,'' but instead 
recognize that other resource outputs and values affect community well-
being. And, we are working more with communities, in partnership, to 
develop resource management strategies.
    <bullet> The public's role in forest planning and decision-making 
is also changing. Collaboration has replaced litigation in some 
instances. In others, the courts continue to play a significant role in 
shaping forest policy.
    New science, new technology, and a renewed emphasis on seeking 
greater involvement on the part of the public and other agencies in the 
planning process warranted a new look at how we go about planning the 
management of the national forests. With this in mind, the Committee 
was encouraged to be bold and creative in their thinking and ask tough 
questions of the agency and others regarding the current planning 
process.
    As Gifford Pinchot stated nearly a century ago in offering his 
perspective on managing the national forests,

    ``National Forests are made for and owned by the people. They 
should also be managed by the people . . . . If National Forests are 
going to accomplish anything worthwhile the people must know all about 
them and must take a very active part in their management. What the 
people as a whole want will be done. To do it, it is necessary that the 
people carefully consider and plainly state just what they want and 
then take a very active part in seeing that they get it.''
    The Committee's report paints a refreshing picture of the future 
for forest management and planning. The Committee acknowledges that 
they were surprised to learn that innovations in planning and 
collaborative partnerships already abound on many national forests and 
grasslands. Of necessity, many forest managers and Forest Service 
regions have developed innovative ways to commingle science and 
collaborative public processes to improve land management decisions.
    As we believed would be the case, these innovative strategies 
provided a good starting point for the committee to use in developing a 
more integrated, long-lasting, and flexible planning framework. The 
committee's recommendations would do away with the one-size fits all 
approach to planning. Its proposed framework provides flexibility to 
managers in dealing with a multitude of resource issues at various 
scales across the landscape. Most importantly, the framework calls for 
managers to integrate public collaboration with science to identify 
desired future conditions of these lands that represent sustainable 
management. As pathways to achieving these conditions, forest plans 
should include adaptive practices, monitoring, performance and measures 
budgeting strategies. All should be linked to achieving desired future 
conditions with the underlying tenet of ensuring sustainability.

Ecological Sustainability: Foundation for Management

    Based on this strong foundation, we strongly support the 
committee's recommendation that ecological sustainability should be a 
foundation for management of the national forest system. Managing for 
ecological sustainability will provide the public with a long-lasting 
flow of benefits from forests and grasslands, including clean air and 
water, productive soils, biological diversity, goods and services, 
employment opportunities, and broaden community benefits. I believe, in 
fact, that this is simply a reaffirmation of the direction provided to 
Gifford Pinchot, the first Chief of the Forest Service, by then 
Secretary Wilson which stated, ``. . . where conflicting interests must 
be reconciled the question will always be decided from the standpoint 
of the greatest good of the greatest number In the long run.''
    We agree with the committee that conserving habitat for native 
species and the productivity of ecological systems remains the surest 
path to maintaining ecological sustainability. To accomplish this, the 
committee suggests that the agency maintain: (1) the viability of 
selected ``focal'' species and their habitat needs; (2) maintain 
conditions necessary for ecological integrity; and (3) monitor their 
effectiveness.
    As many of you know, our current regulations require the agency to 
ensure viable populations of wildlife in our forests. In addition, as 
the agency has developed a keener understanding of how our forested 
watersheds function through management and research, it has undertaken 
to preserve and enhance these functions. In other words, we are working 
towards these objectives already, but we can improve the means by which 
we achieve these ends. Therefore, we welcome the committee's 
recommendations and will evaluate them closely as we propose the draft 
rule.
    At all levels of planning, we agree that ecological sustainability 
is inextricably linked to social and economic sustainability. We must 
manage our forests to ensure that they are healthy and able to provide 
present and future economic and social contributions to society. At the 
same time, to achieve sustainability, the agency now relies and will 
continue to rely on the hard work and entrepreneurial spirit and 
investment of people in communities locally and elsewhere. We have a 
lot of work to do in the forests to achieve our goals and we cannot do 
it without people and healthy economies. Achieving ecological 
sustainability also means identifying the important social values of 
these lands to all, including Native Americans, and preserving or 
enhancing them.
    From a management perspective, this concept of ecological 
sustainability has evolved in practice over the years since the passage 
of the 1897 Organic Act. And, from a legal perspective, a host of laws 
since then has decisively affirmed the overarching responsibility of 
the Forest Service to manage these lands in an ecologically sustainable 
way in order to ensure that multiple use values are preserved. The 
proposed regulation should encapsulate the multi-faceted policy of 
sustainability--a policy whose meaning has certainly evolved since 
1897.

Collaborative Planning:
Involving the Public and Others to Gain Understanding

    We strongly support the committee's recommendation to make public 
collaboration and coordination with other Federal, state, local and 
tribal entities one of the main elements of the new planning framework. 
As stated in the report, collaborative planning creates opportunities 
for people and organizations to work together to find agreement on a 
common vision for future land conditions. In doing so, the planning 
process would cultivate an understanding around problems and issues as 
well as strategies and actions. The overall purpose of this effort is 
to build effective stewardship for sustainability.
    The agency has been experimenting with ways to involve the public 
earlier in the planning process to identify problems and solutions. The 
committee supports this and calls for even more vigorous involvement at 
all stages of the planning process. For example, the committee strongly 
recommends that the agency and the public look beyond the forest 
boundaries to determine the role that national forests play in 
ecosystems and communities. It is a starting point in helping the 
agency and the public determine future desired conditions when people 
understand the role the forests play or have played in the ecosystem.
    We agree with the committee that even with more collaborative 
relationships and shared understanding of the planning process, 
conflicts will remain. However, through collaboration, the scope of the 
conflicts may be narrowed and the public will have a better 
understanding of how and why decisions are reached and a stronger role 
in affecting these decisions.

Integrating Science and Accountability into Collaborative Planning:
Assessments, Adaptive Management, Monitoring
Budgeting and Performance Measures

    As components of highly complex ecosystems, forests are always 
changing. The agency always will be working with imperfect 
approximations of conditions. However, we agree with the committee that 
credible scientific assessments at both large and small scales, as 
deemed appropriate, can shed light on tough issues, guiding the 
decision maker and the public toward identifying problems and reaching 
solutions. Assessments can be used for a number of reasons, such as 
identifying issues of special importance; laying the groundwork for 
developing regional conservation strategies; improving inventories; and 
providing the context for planning.
    The agency currently uses large and small scale assessments, such 
as the Sierra Nevada and the Interior Columbia Basin assessment efforts 
for some of these purposes. For example, recently, in tackling the pine 
beetle infestation affecting the Idaho Panhandle National Forest 
Supervisor Dave Wright not only used the Interior Columbia Scientific 
Assessment as a guide, but he initiated an intermediate level 
assessment over a large area of the Panhandle, and then a smaller-scale 
assessment at a more site specific level to determine the scope of the 
problem as well as possible solutions. The Forest Service was pleased 
with the outcome of this analysis and the range of alternatives in the 
Draft EIS which is out for public comment.
    I think the most important aspect of this recommendation is that 
the agency should decide, after involving the public, at what scale to 
conduct its assessments. Management decisions would be matched to the 
scope and scale of the issues addressed. Issues or problems can be 
addressed at the regional, large, or small, or a combination of the 
three, depending on the need.
    Assessments and other scientific information can help shape 
problems and issues as well as a common vision for the future 
conditions and outcomes of the national forests. This is as essential 
to the planning process as focusing on a schedule of management actions 
needed to reach desired future conditions. Ensuring that the forests 
and regions stay on track will require adapting to changing conditions; 
therefore, monitoring and adaptive management strategies are essential 
to forest plans. Underlying these efforts must be land managers' 
commitment to measuring performance regularly and adjusting management 
strategies when desired future conditions are not being met. The agency 
is already working on land based performance measures which will be 
implemented by 2001.
    In addition, forest managers, as they develop forest plans, need to 
be realistic about their budgets. The committee recommends, and we 
strongly agree, that a nexus needs to exist between the plan, the 
budget and the public's expectations.
    Other recommendations in the report underscore the need for science 
and research to play an integral part in the development and 
implementation of forest plans. Without the science, achieving desired 
future conditions will be difficult, if not impossible, because we have 
no way to ensure that our management strategies are working. We have 
known for years that science is integral to management, but our efforts 
presently are falling short due to lack of funding and an inconsistent 
commitment on the part of the agency. We believe that a planning 
regulation with more rigorous adaptive management and monitoring 
requirements is definitely needed, but we are mindful of budget 
constraints.

Watersheds and Timber Supply: Traditional
Focuses in Achieving Sustainability

    The Organic Act and NFMA both recognize the importance of watershed 
protection and timber supplies from National Forest System lands. The 
committee recommends that strategies for achieving healthy watersheds 
must be integrated with collaborative planning processes at all levels. 
I strongly agree with the Committee's belief that watersheds must be 
restored and maintained to achieve sustainability. As you know, 
restoration and maintenance of healthy watersheds is one of the primary 
goals of the Forest Service's Natural Resources Agenda. As stated 
earlier, the agency now uses watershed assessments to guide management 
decisions, particularly in the Pacific NW and California. The agency 
also collaborates with interested parties, Indian tribes, and other 
Federal state and local agencies to achieve watershed goals.
    I also agree with the committee that a functioning timber industry 
can help the Forest Service accomplish long-term timber stand and 
landscape objectives, just as predictable timber supplies from the 
national forests help the timber industry and surrounding communities. 
Communities need as much certainty as possible in planning for their 
futures. A collaborative planning process, using assessments and 
scientific information, adaptive management and monitoring to develop 
strategies to achieve desired future conditions can result in watershed 
protection and timber harvest that contributes to long-term 
sustainability for forests and communities.

Summary

    The Committee of Scientists exceeded my expectations in responding 
to the Secretary's direction. Indeed, the Committee's work verifies 
that the mission of the agency is very clear, to sustain these forests 
and grasslands for the benefit and enjoyment of present and future 
generations. We have been striving to meet this charge, but we can do 
it better with more clarity, purpose, coordination and consistency, as 
indicated in the report. For this very reason, the agency needs to move 
forward to write a new forest planning rule, incorporating much of what 
it already knows from practice and building upon the strong foundation 
established by this Committee report.
    In closing, the Secretary and I are very grateful for the 
committee's public service in writing this report. I want to thank the 
committee for giving us this opportunity today to discuss this report 
and now I will let Chief Dombeck add a few more comments before turning 
it over to Dr. Norm Johnson, chairman of the committee.
    Thank you, again, for the opportunity to join you today.
                                 ______
                                 
         Statement of Mike Dombeck, Chief, USDA Forest Service

    Madam Chairman and Members of the Subcommittee: I appreciate the 
opportunity to join Under Secretary Lyons and Dr. Norman Johnson, 
Chairman of the Committee of Scientists, as we discuss the Committee of 
Scientists' final report. I will share with you my expectations for 
taking the report's scientific and technical recommendations and 
drafting a new set of planning regulations.

Background

    I believe the Forest Service's 192 million acres of national 
forests and grasslands should be the model for other landowners and 
other nations about how we can live in productive harmony with the 
lands and waters that sustain us all.
    The National Forest System (NFS), comprising public land in 42 
States and Puerto Rico consists of 155 National Forests, 20 National 
Grasslands, and other lands under the jurisdiction of the Secretary of 
Agriculture. These lands provide a variety of public uses and an 
enduring supply of goods and services for the American people 
consistent with its statutory mandates.
    During the twenty three years since the National Forest Management 
Act's (NFMA) enactment, uses of public lands have increased and much 
has been learned about the planning and management of National Forest 
System lands. NFMA's premise of land and resource management planning 
promoted public participation and improved interdisciplinary management 
of resource stewardship. Nonetheless, based on our knowledge today, we 
now know we can do an even better job of integrating science and the 
public's participation for the next round of forest planning.
    Land and resource management planning cannot, and should not, be 
expected to resolve all problems; however, improved planning can refine 
the focus of many issues, expand available choices, and enhance public 
service.

Common Ground

    So much of the debate over natural resources today seems to focus 
on those things about which people disagree. Yet, as I am sure you will 
agree, there is common ground for us to walk on and chart a new course 
toward sustainability. After nearly two years of study, the Committee 
of Scientists' report illustrates that there are many similarities in 
various perspectives on how to manage our national forests and 
grasslands.
    We all share the belief that we cannot allow multiple use of these 
lands to diminish the land's productivity. Moreover, the land's ability 
to support communities depends on taking care of the land's health, 
diversity, and productivity. This certainly is consistent with the 
multiple use, sustained yield mandate.
    To achieve this balance, we must build the capacity for stewardship 
among communities of place and communities of interest.
    The best available science from all sources must be used to help 
identify options for decisions on the landscape. Additionally, we would 
likely all agree that continued multiple use management of our national 
forests and grasslands is appropriate.
    The American people are less concerned about encyclopedic 
environmental impact statements and phone book size forest plans than 
they are about tangible results such as cleaner water, better habitat, 
abundant populations of fish and wildlife, stable soils, and so on. 
That is the essence of the Forest Service natural resource agenda. 
Combined with the recommendations of the Committee of Scientists, we 
will craft a new set planning regulations that better meets the 
expectations of the citizen-owners of public lands.

Development of a New Planning Rule

    Forest plans are documents of the public trust, they are the 
delivery systems for public benefits from national forests and 
grasslands. Without scientifically based forest planning, the agency 
cannot provide management that is credible, legally sound, and 
responsive to public interests.
    As stewards of the public trust, we know that our forests and 
grasslands will confer economic, social, and other benefits on people 
and communities nationwide only as long as we manage them in a way that 
maintains their health, diversity, and long term productivity. Forest 
planning is the pathway to achieving this end result.
    Based upon the Committee of Scientists' recommendations, ecological 
sustainability will lay a critical foundation for fulfilling the intent 
of laws and regulations guiding the public use and enjoyment of 
national forests and grasslands.
    To promote vibrant ecological, social, and economic environments, 
our proposed planning regulations will deliver a collaborative planning 
process designed to engage the public and apply the best available 
scientific information.
    We will build upon over two decades of experience and advice 
regarding the principles and practice of land and resource planning and 
management.
    We will simplify and streamline the current planning process. It 
will facilitate conversation rather than confuse; encourage rather than 
impede communication.
    Watershed maintenance and restoration are the oldest and highest 
callings of the Forest Service. The agency is, and always will be, 
bound to them by law, science, and tradition. The national forests 
truly are, the headwaters of the nation. I mention this because I 
firmly believe that if we take care of our watersheds, if we allow them 
to perform their most basic functions of catching, storing and safely 
releasing water over time, they will take care of us. Hence it is my 
expectation that future forest plans will develop strategies and 
document how we will:

        maintain and restore watershed function, including flow 
        regimes, to provide for a wide variety of benefits from 
        fishing, to groundwater recharge, to drinking water;
        conduct assessments that will characterize current conditions 
        and help make informed decisions about management activities, 
        protection objectives, and restoration potential;
        protect, maintain and recover native aquatic and riparian 
        dependent species and prevent the introduction and spread of 
        non-native species;
        monitor to ensure we accomplish our objectives in the most 
        cost-effective manner, adapt management to changing conditions, 
        and validate our assumptions over time;
        include the best science and research, local communities, 
        partners, tribal governments, states, and other interested 
        citizens in collaborative watershed restoration and management, 
        and
        provide opportunities to link social and economic benefits to 
        communities through restoration strategies.
    Many of our forest plans contemplate the use of management regimes 
which are simply now out of synch with the public's expectations and 
science. As an example, many forest plans project the use of even-age 
management or clearcutting, when that practice in many cases, is 
inconsistent with science and the public's expectations. The Forest 
Service very much needs to revise its planning regulations to get on 
with the job of managing these lands consistent with the best science 
and public needs.
    A Forest Service team will employ the committee's recommendations 
in preparing proposed planning regulations. The planning framework will 
build on the work of the committee and highlight the role of 
sustainable natural environments and the actions necessary to provide 
strong, productive economies, enduring human communities, and the 
variety of benefits sought by American citizens.
    It is anticipated that revisions of the planning manual will 
accompany or soon follow the proposed planning regulation. Both of 
these are anticipated for public review and comment this Spring. At 
that time, we would like to hear from a wide variety of people 
regarding our proposed planning procedures.
    This concludes my prepared remarks. I am happy to answer any 
questions you may have.
                                 ______
                                 
Statement of Dr. Donald W. Floyd, Chair, Society of American Foresters 
                       Task Force on Public Lands

    Madam Chairman, my name is Don Floyd, Chair of the Society of 
American Foresters (SAF) Task Force that has been studying the 
management of the national forests and BLM public lands since December 
of 1996. The product of that work is the report you have before you 
entitled Forest of Discord. This report represents the collective 
wisdom of the almost 18,000 members of the Society that constitute the 
scientific and educational association representing the profession of 
forestry in the United States. SAF's primary objective is to advance 
the science, technology, education, and practice of professional 
forestry for the benefit of society. We are ethically bound to advocate 
and practice land management consistent with ecologically sound 
principles. I am especially pleased to be here today and I thank the 
Subcommittee for its continued support of professional forestry. I 
thank the Chair for the opportunity.
    I am not here today to give a response to the Committee of 
Scientists report. Like our report, theirs took a great deal of time to 
develop and is at least 100 pages. It will take SAF considerable time 
to provide a scholarly review of their important work. We have 
committed to this review, and will make it available to this 
Subcommittee, the Department of Agriculture, and the public as soon as 
we complete it. In addition to SAF's formal review, the May Journal of 
Forestry is devoted to the Committee of Scientists report and will 
contain analysis from leading scholars reflecting a variety of 
viewpoints.
    I wish to briefly describe the process we used to develop our 
report. The Task Force represents natural resource professionals from 
all employment sectors and regions of our membership. They are an 
excellent group of people and it was an honor to work with them. Our 
charter was different than the Committee of Scientists in that we were 
to look beyond the planning regulations and examine all the laws and 
regulations that affect the Forest Service and the Bureau of Land 
Management (BLM). Our charter reminded me of the charge to the last 
Public Land Law Review Commission in the 1960s. It was, at times, an 
overwhelming task.
    As part of our process, we met with the SAF membership at national 
conventions, state society meetings, and one on one. We also visited 
field offices of the Forest Service and spoke to BLM managers. The 
Society's Forest Science and Technology Board and Committee on Forest 
Policy have reviewed and approved the report. In addition, scholars 
both inside and outside the SAF membership have reviewed the report. 
The SAF Council (our board of directors) endorsed the report on March 
10, 1999, after a very deliberate debate on its contents.
    In developing our report I made a conscience effort not to review 
the Committee of Scientists' work. I felt this would ensure some 
independence of thought. I have now read some drafts of their report, 
and the executive summary released yesterday. It is remarkable to find 
so many similarities between the two efforts. I am pleased that our 
report and the Committee of Scientists' report offer a platform for 
Congress and the Administration to put aside their differences and 
begin the overdue discussion about priorities for conservation.
    Madam Chairman, as I mentioned there are similarities between the 
two reports. If I was forced to find a difference after my initial 
screening of the Committee of Scientists' report, I believe that 
difference is that we call for new legislation. The SAF believes that 
the purposes of the national forest and public lands are no longer 
clear. After careful analysis we hold the belief that multiple use, 
when viewed as a guiding principle for all forest lands, has become an 
engine of conflict that pits one interest group against another and 
denies land managers a clear mandate. Bob Wolf (formerly of 
theCongressional Research Service) compares multiple use to a product 
created accidentally in a G.E. laboratory over 50 years ago. He states 
``Silly Putty can be shaped, but if left for a few minutes it reverts 
to its indeterminate mass. Multiple use has the same characteristic: it 
can be stated specifically . . . but it defies meaningful description 
when one seeks to portray examples on the ground.'' Congress has the 
constitutional responsibility to set policy for the national forests 
and public lands and should act decisively to establish clear 
priorities for their management. Congress should work cooperatively 
with the Administration to develop new legislation. This legislation 
should articulate that multiple use is not necessarily appropriate on 
every management unit, but may be better applied in the aggregate 
across that national forests and public lands. It should also spell out 
how to rectify perceived conflicts between our revered environmental 
laws and our land management statutes.
    The Society of American Foresters is a group of professionals 
trying to solve problems to benefit society. We are not the timber 
industry, we are not the environmental community, we represent all 
these interests in our membership and like to think of ourselves as 
moderates. We do want change. We want better forest management. Our 
concern is not how it is achieved, as long as it is achieved. The 
Administration does not believe new legislation is needed. The Congress 
does not believe the Administration can fix the problems through new 
regulations. If bipartisan solutions cannot be developed, I fear that 
our effort and that of the Committee of Scientists will be just another 
in a series of discarded reports. Perhaps we should not be called 
moderates but idealists, as we believe that a bipartisan Congress and 
the Administration should work together to develop new regulations and 
new legislation to address these important issues. This will take a 
commitment to negotiate in good faith, with a clear goal of balancing 
the legitimate public values for national forests and public lands.
    The Committee of Scientists ``believes that sustainability in all 
its facets--ecological, economic, and social--should be the guiding 
star for stewardship of the national forests and grasslands.'' We 
strongly agree with this concept, and we think the American people do 
as well. We all would be angry if the Forest Service and the BLM were 
not good stewards and if sustainability was not the agencies' primary 
goal. We do believe, however, that sustainability is a goal but does 
not clearly define the purpose of these national lands. The SAF feels 
the questions of sustainability for whom and for what have not yet been 
answered. This is why we call for a cooperative approach between 
Congress, the Administration, and others to develop new legislation to 
clarify the purposes of the national forests and public lands.
    We believe our report presents a framework to ask the people, 
through Congress and the Administration, to define the purposes. This 
does not mean that we believe the Forest Service should not develop new 
regulations for the forest planning process. That effort should move 
forward based on the excellent work of the Committee of Scientists and 
other organizations and individuals interested in the national forests.
    As we reinvigorate the national dialogue about the purposes of the 
national forests and public lands we would like to see change in the 
following areas:

Improving the planning process

        <bullet> Resource management plans and subsequent monitoring 
        strategies should provide an appropriate range of diverse, 
        resilient aquatic and terrestrial communities.
        <bullet> Resource management plans should identify and quantify 
        (to the extent feasible) appropriate goals and outcomes, 
        including vegetation management goals, and commodity and 
        amenity outputs.
        <bullet> The plans should compare and contrast the goals and 
        outcomes with recent performance, highlighting situations where 
        a significant change in direction is proposed.
        <bullet> Plans should indicate expected financial performance 
        and expected economic and environmental consequences (including 
        economic and social stability, downstream air and water quality 
        and other environmental effects).
        <bullet> The goals and outputs (including fiscal expectations 
        and downstream effects) should be set forth in a manner that 
        provides a basis for monitoring, evaluating, and reporting 
        agency performance.
        <bullet> Both citizen participation and professional discretion 
        are important in resource management planning. Citizens clearly 
        have a responsibility to make their wishes known, and 
        professional resource managers have a duty to listen carefully 
        to the public.
        <bullet> Public participation at the local level should enrich, 
        not paralyze, implementation of national or regional policy 
        goals. Congress must clearly define the role of local 
        participation with regard to national policy directives. 
        National and regional decisions should be shaped through 
        national and regional participation.
        <bullet> Both Forest Service and BLM forest planning 
        regulations should identify the analyses and decisions that 
        must be made at each planning level.
        <bullet> Forest or area plans and resource management plans 
        should identify necessary monitoring as well as the type, 
        location, and intensity of measurements needed. Monitoring 
        should be cost effective and should concentrate on key 
        outcomes. The monitoring plan should be part of the decision 
        document.
        <bullet> Both Forest Service and BLM forest planning 
        regulations should provide a systematic means for addressing 
        new information, including the results of monitoring. This 
        should include ways to preserve or protect values of concern 
        while the new information is examined for scientific validity 
        and incorporated into analyses and decisions, but without 
        overriding or invalidating the planned targets and budgets.
        <bullet> Experimentation should be encouraged, but it should be 
        limited to certain conditions. Authority for experiments should 
        be constrained until the agencies have demonstrated that 
        adequate controls are in place.
        <bullet> Any legislation designed to improve the planning 
        process should be clear in its relationship to existing 
        planning legislation.

Financing land management

        <bullet> A variety of experimental programs exist for 
        collecting revenues from recreational users and nontraditional 
        forest products. These programs should be expanded. If, for 
        example, watershed management is reemphasized, Congress must 
        address how to pay for it, or how it can pay for itself.
        <bullet> Forest or area plans should explain how the goals and 
        outcomes would be affected by differing budgets. Annual 
        reporting on agency performance can then compare and contrast 
        the goals and outcomes of the plan with the requested budgets 
        and actual allocations.
        <bullet> Use of the trust funds and special accounts should be 
        reviewed and modified if necessary. Administrative reform is 
        warranted before legislative changes are considered. The 
        agencies should use care to ensure that projects funded through 
        these accounts meet the legislative intent Congress had when 
        developing the accounts.
        <bullet> Congress should continue to examine the adequacy of 
        payments in lieu of taxes and other compensation programs to 
        ensure that the states and counties are fairly and consistently 
        compensated for the tax-exempt status of Federal lands.
    Madam Chairman, I believe you will see many similarities between 
the Committee of Scientists' report and the recommendations I have 
outlined. Our hope is that everyone who cares about the management of 
our public lands and national forests will carefully consider these two 
reports. While we differ in the institutions we would pick to make 
these changes, both the Committee of Scientists and the Society of 
American Foresters have the same goal: ensuring the health of the land.
    This concludes my statement. Thank you for the opportunity to 
present our views today. I will be happy to answer any questions at 
this time.

[GRAPHIC] [TIFF OMITTED] T6355.001

[GRAPHIC] [TIFF OMITTED] T6355.002

[GRAPHIC] [TIFF OMITTED] T6355.003

[GRAPHIC] [TIFF OMITTED] T6355.004

    Statement of Mary Munson, Senior Associate, Habitat Conservation

    Thank you for the opportunity to testify on the Committee 
of Scientists' historic report. Defenders of Wildlife is a 
nonprofit organization with 300,000 members and supporters, 
dedicated to the protection of native wildlife in their natural 
habitats. On behalf of Defenders, I welcome your interest in 
forest planning and management, and your willingness to hear 
the views of the environmental community on this important 
issue.
    In their report, the Committee of Scientists states that 
protecting biodiversity is vital to public lands stewardship. 
To carry that out, it offers an innovative, science-based 
approach for protecting structures, processes and conditions to 
sustain wildlife and ecosystems. Overall, the report represents 
an improvement for planning regulations by strengthening and 
expanding viability rule and reinforcing ecological 
sustainability as the foundation of national forest 
stewardship. The major challenges ahead, and our deepest 
concern, is that these recommendations are adequately 
translated into regulations. The regulations must contain clear 
standards for ecosystem integrity and species viability, as 
well as objective methods of determining whether the standards 
are being met.
    The report establishes ecological sustainability as the 
foundation of national forest planning. This conclusion is 
widely accepted among conservation biologists. It is also 
intuitively obvious. How can the wide range of uses occur over 
time if they are harming the conditions necessary to bring them 
about? Taken in totality, our national environmental laws 
reinforce this conclusion. We do not believe this is 
controversial and congratulate the Committee for acknowledging 
its veracity.
    A major innovation in the report is its approach to 
wildlife protection. It reaffirms the notion that managing 
forests to maintain the viability of wildlife species is a 
cornerstone of biodiversity protection. One of the major 
criticisms of the existing species viability regulation is that 
it is difficult to implement. Many witnesses that came before 
the Committee claimed it was unworkable, since it had been 
interpreted to require scientific evaluations of all species. 
The Committee is proposing a trimmed down, more efficient way 
to protect species viability without giving up that essential 
component, collecting and analyzing species population and 
trend data. Instead of requiring this assessment for all 
species, the Committee applies it to a subset of surrogates 
known as ``Focal Species.''* We believe this compromise is fair 
and reasonable. The challenge for the agency is to produce 
regulations that define Focal Species in a way which is true to 
the Committee's vision, so the agency is responsible for 
selecting truly representative surrogates for all species in 
the forest.
---------------------------------------------------------------------------
    * Focal species indicate the integrity of certain ecological 
communities or are particularly affected by management actions or 
certain stresses. Focal species are also selected if they play an 
ecological engineering role, are threatened with extinction, or play 
indicator or keystone species roles. Best science is used to assess the 
conditions necessary to protect and restore viability of focal, 
threatened, endangered and sensitive species, and management decisions 
are based on achieving those conditions.
---------------------------------------------------------------------------
    But because the subset of species evaluated by the Forest 
Service will be limited, it is essential that the regulations 
state that the collection of quantitative inventory data for 
those species is an indispensable duty. Since the Committee 
emphasizes that monitoring and adaptive management are integral 
to planning, data collection for the designated surrogate 
species must be done on an ongoing basis. Currently, two 
important sections of the Code of Federal Regulations--36 CFR 
Sections 219.19 and 219.26, which apply to Management Indicator 
Species (MIS)--might be examined as models, substituting the 
``Focal Species'' for MIS. We believe that the 11th Circuit 
Court of Appeals ruling on February 8, 1994 in Sierra Club v. 
Martin defined the intent of those CFR sections as consistent 
with the intent of the Committee in data collection, assessment and monitoring for Focal Species. Section 219.19(a)(6) states that ``[p]opulation trends 
of the management indicator species will be monitored and 
relationships to habitat changes determined.'' Section 219.26 
states that diversity must be considered throughout the 
planning process, and that ``[i]nventories shall include 
quantitative data making possible the evaluation of diversity 
in terms of its prior and present conditions.'' In Martin, the 
Court held that those sections, taken together, ``require the 
Forest Service to gather quantitative data on MIS and use it to 
measure the impact of habitat changes on the forest 
diversity.'' This is the role envisioned for Focal Species, and 
these sections should be taken as guides when rewriting the new 
regulations. They should also be used as models for gathering 
empirical data for threatened, endangered and sensitive species 
as well.
    The current viability regulation limits managers to 
ensuring viability for only vertebrate species. The Report 
suggests that this be extended to non-vertebrate native

species as well. Also, a full range of natural conditions, 
processes and habitats would be protected under the proposed 
planning regime. By including such a broad spectrum of criteria 
and indicators, the approach reflects current thinking that has 
been adopted by international experts.
    While we generally support the report's recommendations 
regarding ecological sustainability, we are concerned about 
some other aspects of the report. For example, the Report 
states that the plan-implementation priorities for funding in 
the face of budget shortfalls should be determined during the 
collaborative ``learning'' process. To be consistent with its 
conclusions about ecological sustainability, the Regulations 
should clearly state that some elements in planning are not 
optional. Assessments, analysis and monitoring are examples of 
indispensable planning steps. If there is no budget available 
for them, program activities should be curtailed. No 
``collaborative'' group should be allowed the discretion to 
eliminate them.
    One of the most pressing issues in national forests, 
roadless area protection, was given virtually no attention in 
the report. Defenders and many other organizations are 
concerned about the continual pressure applied by the Forest 
Service to put roads into the relatively small portion of the 
forests that remain roadless. The basis for pushing these roads 
forward is timber sales. What makes this so tragic is that 
these areas command low timber prices and/or have high 
administrative costs associated with them, so sales are bound 
to be money-losing for the agency. However, these lands have 
high values and use by wildlife, as well as conditions and 
qualities that argue for leaving them roadless. The Committee 
was remiss in leaving this issue out.
    Another concern is that the discussions about collaborative 
stewardship did not point out the problems associated with 
self-appointed collaborative groups such as the Quincy Library 
Group. There needs to be caution about embracing similar bodies 
and planning processes that engage them.
    Thank you again for the opportunity to testify.
                                ------                                


   Statement of Robert W. Bierer, American Forest & Paper Association

    Madam Chairman and Members of the Subcommittee:
    Thank you for the opportunity to provide some views of the 
American Forest & Paper Association on the report prepared by 
the Committee of Scientists. I am Bob Bierer, Director of 
Forest Management for the Association. I am presenting my 
testimony today on behalf of AF&PA's member companies, 
associations, and allied groups. AF&PA members include forest 
land owners, manufacturers of solid wood products, and 
producers of pulp and paper products. The U.S. forest products 
industry has sales of over $195 billion annually and employs 
1.6 million people. One point two percent of the entire U.S. 
work force. Many of our members are totally or partially 
dependent on timber from the national forests and other Federal 
lands.
    As you know, the Committee of Scientists was appointed by 
USDA Secretary Dan Glickman to evaluate the Forest Service land 
and resource management planning process and provide 
recommendations for new planning regulations. Because our 
Association has an intense interest in the agency's land 
management planning process, we have followed the Committee's 
progress and deliberations closely through its series of public 
meetings and conference calls over a 15-month period starting 
in December of 1997. We submitted background information for 
their consideration as well as written comments regarding the 
current Forest Service Planning process.
    At their meetings, the Committee heard that the Forest 
Service has spent many millions of dollars and thousands of 
employee person-years, and conducted countless meetings and 
public comment periods to develop the current forest plans for 
each national forest, but to what end? The agency is not 
committed to implementing the forest plans (no forest plan is 
being fully implemented), the public is even more polarized 
than ever, virtually every forest plan is appealed and 
litigated, local communities and businesses cannot rely on the 
outputs the expect from the forest plans, and the cost of 
forest planning and project planning to implement the forest 
plans continues to sky-rocket.
    Although the Committee's final report has not yet been 
distributed to the public, we have several concerns I would 
like to share with you based on our review of report drafts.
    First, the final report has not undergone any scientific 
peer review or public review. At one of the Committee's early 
meetings, USDA Under Secretary Jim Lyons expressed his belief 
that the report should undergo a scientific peer review. In its 
haste to finish the report, however, the Committee has opted to 
forego any outside review of the report. Why? Both a scientific 
peer review and a public review of the report are essential 
before the Forest Service issues new draft planning 
regulations. The Committee is recommending a new theoretical 
``viability'' regulation that is operationally untested. Other 
qualified, credentialed scientists probably have differing 
views regarding species ``viability'' and other changes 
recommended in the report.
    Second, the report recommends what is clearly a new mission 
for the Forest Service that is in conflict with much of its 
statutory mission. It stresses a sharp shift towards ecosystem 
preservation with ecological sustainability being paramount, 
ignoring the Forest Service's statutory mandate of multiple-use 
management. As one Committee member has noted, this focus on 
the preeminence of ecological sustainability, coupled with the 
new stringent viability regulations recommended in the report, 
would have the effect of operating the National Forests as 
biological reserves.
    Furthermore, the Committee uses a definition of 
sustainability that is different from the one being used in 
international negotiations by the U.S. Government and other 
countries. Internationally, sustainable forest management gives 
equal consideration to social, economic, and ecological values. 
This definition was just endorsed at a national conference last 
week in Reno, where over 150 school administrators and elected 
county officials passed a resolution that sustainable forest 
management must include ecological, economic, and social 
factors equally.
    This change goes well beyond the Secretary's charge to the 
Committee ``to provide scientific and technical advise to the 
Secretary of Agriculture and the Chief of the Forest Service on 
improvements that can be made in the National Forest System 
Land and Resource Management planning process'' and that this 
be done ``within the established framework of environmental 
laws and within the statutory mission of the Forest Service.''
    Third, most fundamental flaws in the current forest 
planning process will not be corrected with the changes 
suggested in the report. Forest plan implementation, for 
example, is frequently disrupted by administrative fiat, the 
most recent example being the recent roads moratorium. These 
top-down directives from Washington render the forest plans 
useless, undermining the ability of local managers and 
communities to manage forests based on local conditions and 
overriding years of local negotiations and compromise that went 
into the development of current forest plans. No wonder that 
local residents feel betrayed and frustrated and forest plans 
have no credibility!
    The report acknowledges but does little to address the 
problem of endless appeals that has plagued the forest plans 
and the planning process. It ignores other available. 
successful models, such as pre-decisional appeal process used 
by the Bureau of Land Management.
    Meaningful forest plan implementation will remain 
impossible without basic reform to force the budget and 
planning processes to operate in concert. Plans without 
corresponding budgets cannot be implemented! We are also very 
concerned about the disconnect between the strategic planning 
being conducted for the Government Performance and Results Act 
(GPRA), annual budgeting, and forest planning.
    I would like to close with a quote from a recent editorial 
by Former Chief Jack Thomas. ``We have learned, and continue to 
learn, a great deal about our forests. We know that the heavy 
hand of one-size-fits-all government regulation does not land 
lightly or evenly. We know our crazy quilt of laws and policies 
often prevent management practices from working properly. And 
we know it is the stakeholders--people who stand to win or 
lose--who seem best situated to guide the decision-making to 
preserve their forests and protect lives and property.'' We 
fear, Madame Chairman, that the Committee's report has badly 
missed the mark!
                                ------                                

[GRAPHIC] [TIFF OMITTED] T6355.005

[GRAPHIC] [TIFF OMITTED] T6355.006

[GRAPHIC] [TIFF OMITTED] T6355.007

[GRAPHIC] [TIFF OMITTED] T6355.008

[GRAPHIC] [TIFF OMITTED] T6355.009

[GRAPHIC] [TIFF OMITTED] T6355.010

[GRAPHIC] [TIFF OMITTED] T6355.011

[GRAPHIC] [TIFF OMITTED] T6355.012

[GRAPHIC] [TIFF OMITTED] T6355.013

[GRAPHIC] [TIFF OMITTED] T6355.014

[GRAPHIC] [TIFF OMITTED] T6355.015

[GRAPHIC] [TIFF OMITTED] T6355.016

[GRAPHIC] [TIFF OMITTED] T6355.017

[GRAPHIC] [TIFF OMITTED] T6355.018

[GRAPHIC] [TIFF OMITTED] T6355.019

[GRAPHIC] [TIFF OMITTED] T6355.020

[GRAPHIC] [TIFF OMITTED] T6355.021

[GRAPHIC] [TIFF OMITTED] T6355.022

[GRAPHIC] [TIFF OMITTED] T6355.023

[GRAPHIC] [TIFF OMITTED] T6355.024

[GRAPHIC] [TIFF OMITTED] T6355.025

[GRAPHIC] [TIFF OMITTED] T6355.026

[GRAPHIC] [TIFF OMITTED] T6355.027

[GRAPHIC] [TIFF OMITTED] T6355.028

[GRAPHIC] [TIFF OMITTED] T6355.029

[GRAPHIC] [TIFF OMITTED] T6355.030

[GRAPHIC] [TIFF OMITTED] T6355.031

[GRAPHIC] [TIFF OMITTED] T6355.032

[GRAPHIC] [TIFF OMITTED] T6355.033

[GRAPHIC] [TIFF OMITTED] T6355.034

[GRAPHIC] [TIFF OMITTED] T6355.035

[GRAPHIC] [TIFF OMITTED] T6355.036

[GRAPHIC] [TIFF OMITTED] T6355.037

[GRAPHIC] [TIFF OMITTED] T6355.038

[GRAPHIC] [TIFF OMITTED] T6355.039

[GRAPHIC] [TIFF OMITTED] T6355.040

[GRAPHIC] [TIFF OMITTED] T6355.041

[GRAPHIC] [TIFF OMITTED] T6355.042

[GRAPHIC] [TIFF OMITTED] T6355.043

[GRAPHIC] [TIFF OMITTED] T6355.044

[GRAPHIC] [TIFF OMITTED] T6355.045

[GRAPHIC] [TIFF OMITTED] T6355.046

[GRAPHIC] [TIFF OMITTED] T6355.047

[GRAPHIC] [TIFF OMITTED] T6355.048

[GRAPHIC] [TIFF OMITTED] T6355.049

[GRAPHIC] [TIFF OMITTED] T6355.050

[GRAPHIC] [TIFF OMITTED] T6355.051

[GRAPHIC] [TIFF OMITTED] T6355.052

[GRAPHIC] [TIFF OMITTED] T6355.053

[GRAPHIC] [TIFF OMITTED] T6355.054

[GRAPHIC] [TIFF OMITTED] T6355.055

[GRAPHIC] [TIFF OMITTED] T6355.056

[GRAPHIC] [TIFF OMITTED] T6355.057

[GRAPHIC] [TIFF OMITTED] T6355.058

[GRAPHIC] [TIFF OMITTED] T6355.059

[GRAPHIC] [TIFF OMITTED] T6355.060

[GRAPHIC] [TIFF OMITTED] T6355.061

[GRAPHIC] [TIFF OMITTED] T6355.062

[GRAPHIC] [TIFF OMITTED] T6355.063

[GRAPHIC] [TIFF OMITTED] T6355.064

[GRAPHIC] [TIFF OMITTED] T6355.065

[GRAPHIC] [TIFF OMITTED] T6355.066

[GRAPHIC] [TIFF OMITTED] T6355.067

[GRAPHIC] [TIFF OMITTED] T6355.068

[GRAPHIC] [TIFF OMITTED] T6355.069

[GRAPHIC] [TIFF OMITTED] T6355.070

[GRAPHIC] [TIFF OMITTED] T6355.071

[GRAPHIC] [TIFF OMITTED] T6355.072

[GRAPHIC] [TIFF OMITTED] T6355.073

[GRAPHIC] [TIFF OMITTED] T6355.074

[GRAPHIC] [TIFF OMITTED] T6355.075

[GRAPHIC] [TIFF OMITTED] T6355.076

[GRAPHIC] [TIFF OMITTED] T6355.077

[GRAPHIC] [TIFF OMITTED] T6355.078

[GRAPHIC] [TIFF OMITTED] T6355.079

[GRAPHIC] [TIFF OMITTED] T6355.080

[GRAPHIC] [TIFF OMITTED] T6355.081

[GRAPHIC] [TIFF OMITTED] T6355.082

[GRAPHIC] [TIFF OMITTED] T6355.083

[GRAPHIC] [TIFF OMITTED] T6355.084

[GRAPHIC] [TIFF OMITTED] T6355.085

[GRAPHIC] [TIFF OMITTED] T6355.086

[GRAPHIC] [TIFF OMITTED] T6355.087

[GRAPHIC] [TIFF OMITTED] T6355.088

[GRAPHIC] [TIFF OMITTED] T6355.089

[GRAPHIC] [TIFF OMITTED] T6355.090

[GRAPHIC] [TIFF OMITTED] T6355.091

[GRAPHIC] [TIFF OMITTED] T6355.092

[GRAPHIC] [TIFF OMITTED] T6355.093

[GRAPHIC] [TIFF OMITTED] T6355.094

[GRAPHIC] [TIFF OMITTED] T6355.095

[GRAPHIC] [TIFF OMITTED] T6355.096

[GRAPHIC] [TIFF OMITTED] T6355.097

[GRAPHIC] [TIFF OMITTED] T6355.098

[GRAPHIC] [TIFF OMITTED] T6355.099

[GRAPHIC] [TIFF OMITTED] T6355.100

[GRAPHIC] [TIFF OMITTED] T6355.101

[GRAPHIC] [TIFF OMITTED] T6355.102

[GRAPHIC] [TIFF OMITTED] T6355.103

[GRAPHIC] [TIFF OMITTED] T6355.104

[GRAPHIC] [TIFF OMITTED] T6355.105

[GRAPHIC] [TIFF OMITTED] T6355.106

[GRAPHIC] [TIFF OMITTED] T6355.107

[GRAPHIC] [TIFF OMITTED] T6355.108

[GRAPHIC] [TIFF OMITTED] T6355.109

[GRAPHIC] [TIFF OMITTED] T6355.110

[GRAPHIC] [TIFF OMITTED] T6355.111

[GRAPHIC] [TIFF OMITTED] T6355.112

[GRAPHIC] [TIFF OMITTED] T6355.113

[GRAPHIC] [TIFF OMITTED] T6355.114

[GRAPHIC] [TIFF OMITTED] T6355.115

[GRAPHIC] [TIFF OMITTED] T6355.116

[GRAPHIC] [TIFF OMITTED] T6355.117

[GRAPHIC] [TIFF OMITTED] T6355.118

[GRAPHIC] [TIFF OMITTED] T6355.119

[GRAPHIC] [TIFF OMITTED] T6355.120

[GRAPHIC] [TIFF OMITTED] T6355.121

[GRAPHIC] [TIFF OMITTED] T6355.122

[GRAPHIC] [TIFF OMITTED] T6355.123

[GRAPHIC] [TIFF OMITTED] T6355.124

[GRAPHIC] [TIFF OMITTED] T6355.125

[GRAPHIC] [TIFF OMITTED] T6355.126

[GRAPHIC] [TIFF OMITTED] T6355.127

[GRAPHIC] [TIFF OMITTED] T6355.128

[GRAPHIC] [TIFF OMITTED] T6355.129

[GRAPHIC] [TIFF OMITTED] T6355.130

[GRAPHIC] [TIFF OMITTED] T6355.131

[GRAPHIC] [TIFF OMITTED] T6355.132

[GRAPHIC] [TIFF OMITTED] T6355.133

[GRAPHIC] [TIFF OMITTED] T6355.134

[GRAPHIC] [TIFF OMITTED] T6355.135

[GRAPHIC] [TIFF OMITTED] T6355.136

[GRAPHIC] [TIFF OMITTED] T6355.137

[GRAPHIC] [TIFF OMITTED] T6355.138

[GRAPHIC] [TIFF OMITTED] T6355.139

[GRAPHIC] [TIFF OMITTED] T6355.140

[GRAPHIC] [TIFF OMITTED] T6355.141

[GRAPHIC] [TIFF OMITTED] T6355.142

[GRAPHIC] [TIFF OMITTED] T6355.143

[GRAPHIC] [TIFF OMITTED] T6355.144

[GRAPHIC] [TIFF OMITTED] T6355.145

[GRAPHIC] [TIFF OMITTED] T6355.146

[GRAPHIC] [TIFF OMITTED] T6355.147

[GRAPHIC] [TIFF OMITTED] T6355.148

[GRAPHIC] [TIFF OMITTED] T6355.149

[GRAPHIC] [TIFF OMITTED] T6355.150

[GRAPHIC] [TIFF OMITTED] T6355.151

[GRAPHIC] [TIFF OMITTED] T6355.152

[GRAPHIC] [TIFF OMITTED] T6355.153

[GRAPHIC] [TIFF OMITTED] T6355.154

[GRAPHIC] [TIFF OMITTED] T6355.155

[GRAPHIC] [TIFF OMITTED] T6355.156

[GRAPHIC] [TIFF OMITTED] T6355.157

[GRAPHIC] [TIFF OMITTED] T6355.158

[GRAPHIC] [TIFF OMITTED] T6355.159

[GRAPHIC] [TIFF OMITTED] T6355.160

[GRAPHIC] [TIFF OMITTED] T6355.161

[GRAPHIC] [TIFF OMITTED] T6355.162

[GRAPHIC] [TIFF OMITTED] T6355.163

[GRAPHIC] [TIFF OMITTED] T6355.164

[GRAPHIC] [TIFF OMITTED] T6355.165

[GRAPHIC] [TIFF OMITTED] T6355.166

[GRAPHIC] [TIFF OMITTED] T6355.167

[GRAPHIC] [TIFF OMITTED] T6355.168

[GRAPHIC] [TIFF OMITTED] T6355.169

[GRAPHIC] [TIFF OMITTED] T6355.170

[GRAPHIC] [TIFF OMITTED] T6355.171

[GRAPHIC] [TIFF OMITTED] T6355.172

[GRAPHIC] [TIFF OMITTED] T6355.173

[GRAPHIC] [TIFF OMITTED] T6355.174

[GRAPHIC] [TIFF OMITTED] T6355.175

[GRAPHIC] [TIFF OMITTED] T6355.176

[GRAPHIC] [TIFF OMITTED] T6355.177

[GRAPHIC] [TIFF OMITTED] T6355.178

[GRAPHIC] [TIFF OMITTED] T6355.179

[GRAPHIC] [TIFF OMITTED] T6355.180

[GRAPHIC] [TIFF OMITTED] T6355.181

[GRAPHIC] [TIFF OMITTED] T6355.182

[GRAPHIC] [TIFF OMITTED] T6355.183

[GRAPHIC] [TIFF OMITTED] T6355.184

[GRAPHIC] [TIFF OMITTED] T6355.185

[GRAPHIC] [TIFF OMITTED] T6355.186

[GRAPHIC] [TIFF OMITTED] T6355.187

[GRAPHIC] [TIFF OMITTED] T6355.188

[GRAPHIC] [TIFF OMITTED] T6355.189

[GRAPHIC] [TIFF OMITTED] T6355.190

[GRAPHIC] [TIFF OMITTED] T6355.191

[GRAPHIC] [TIFF OMITTED] T6355.192

[GRAPHIC] [TIFF OMITTED] T6355.193

[GRAPHIC] [TIFF OMITTED] T6355.194

[GRAPHIC] [TIFF OMITTED] T6355.195

[GRAPHIC] [TIFF OMITTED] T6355.196

[GRAPHIC] [TIFF OMITTED] T6355.197

[GRAPHIC] [TIFF OMITTED] T6355.198

[GRAPHIC] [TIFF OMITTED] T6355.199

[GRAPHIC] [TIFF OMITTED] T6355.200

[GRAPHIC] [TIFF OMITTED] T6355.201

[GRAPHIC] [TIFF OMITTED] T6355.202

[GRAPHIC] [TIFF OMITTED] T6355.203

[GRAPHIC] [TIFF OMITTED] T6355.204

[GRAPHIC] [TIFF OMITTED] T6355.205

[GRAPHIC] [TIFF OMITTED] T6355.206

[GRAPHIC] [TIFF OMITTED] T6355.207

[GRAPHIC] [TIFF OMITTED] T6355.208

[GRAPHIC] [TIFF OMITTED] T6355.209

[GRAPHIC] [TIFF OMITTED] T6355.210

[GRAPHIC] [TIFF OMITTED] T6355.211

[GRAPHIC] [TIFF OMITTED] T6355.212

[GRAPHIC] [TIFF OMITTED] T6355.213

[GRAPHIC] [TIFF OMITTED] T6355.214

[GRAPHIC] [TIFF OMITTED] T6355.215

[GRAPHIC] [TIFF OMITTED] T6355.216

[GRAPHIC] [TIFF OMITTED] T6355.217

[GRAPHIC] [TIFF OMITTED] T6355.218

[GRAPHIC] [TIFF OMITTED] T6355.219

[GRAPHIC] [TIFF OMITTED] T6355.220

[GRAPHIC] [TIFF OMITTED] T6355.221

[GRAPHIC] [TIFF OMITTED] T6355.222

[GRAPHIC] [TIFF OMITTED] T6355.223

[GRAPHIC] [TIFF OMITTED] T6355.224

[GRAPHIC] [TIFF OMITTED] T6355.225

[GRAPHIC] [TIFF OMITTED] T6355.226

[GRAPHIC] [TIFF OMITTED] T6355.227

[GRAPHIC] [TIFF OMITTED] T6355.228

[GRAPHIC] [TIFF OMITTED] T6355.229

[GRAPHIC] [TIFF OMITTED] T6355.230

[GRAPHIC] [TIFF OMITTED] T6355.231

[GRAPHIC] [TIFF OMITTED] T6355.232

[GRAPHIC] [TIFF OMITTED] T6355.233

[GRAPHIC] [TIFF OMITTED] T6355.234

[GRAPHIC] [TIFF OMITTED] T6355.235

[GRAPHIC] [TIFF OMITTED] T6355.236

[GRAPHIC] [TIFF OMITTED] T6355.237

[GRAPHIC] [TIFF OMITTED] T6355.238

[GRAPHIC] [TIFF OMITTED] T6355.239

[GRAPHIC] [TIFF OMITTED] T6355.240

[GRAPHIC] [TIFF OMITTED] T6355.241

[GRAPHIC] [TIFF OMITTED] T6355.242

[GRAPHIC] [TIFF OMITTED] T6355.243

[GRAPHIC] [TIFF OMITTED] T6355.244

[GRAPHIC] [TIFF OMITTED] T6355.245

[GRAPHIC] [TIFF OMITTED] T6355.246

[GRAPHIC] [TIFF OMITTED] T6355.247

[GRAPHIC] [TIFF OMITTED] T6355.248

[GRAPHIC] [TIFF OMITTED] T6355.249

[GRAPHIC] [TIFF OMITTED] T6355.250

[GRAPHIC] [TIFF OMITTED] T6355.251

[GRAPHIC] [TIFF OMITTED] T6355.252

[GRAPHIC] [TIFF OMITTED] T6355.253

[GRAPHIC] [TIFF OMITTED] T6355.254

[GRAPHIC] [TIFF OMITTED] T6355.255

[GRAPHIC] [TIFF OMITTED] T6355.256

[GRAPHIC] [TIFF OMITTED] T6355.257

[GRAPHIC] [TIFF OMITTED] T6355.258

[GRAPHIC] [TIFF OMITTED] T6355.259

[GRAPHIC] [TIFF OMITTED] T6355.260

[GRAPHIC] [TIFF OMITTED] T6355.261

[GRAPHIC] [TIFF OMITTED] T6355.262

[GRAPHIC] [TIFF OMITTED] T6355.263

[GRAPHIC] [TIFF OMITTED] T6355.264

[GRAPHIC] [TIFF OMITTED] T6355.265

[GRAPHIC] [TIFF OMITTED] T6355.266

[GRAPHIC] [TIFF OMITTED] T6355.267

[GRAPHIC] [TIFF OMITTED] T6355.268

[GRAPHIC] [TIFF OMITTED] T6355.269

[GRAPHIC] [TIFF OMITTED] T6355.270

[GRAPHIC] [TIFF OMITTED] T6355.271

[GRAPHIC] [TIFF OMITTED] T6355.272


</pre></body></html>
